                               Office of Inspector General
                              Corporation for National and
                                       Community Service




   AUDIT OF CORPORATION FOR NATIONAL
 AND COMMUNITY SERVICE GRANTS AWARDED
         TO VOLUNTEER FLORIDA

             OIG REPORT NUMBER 07- 07




                         Prepared by:

            Mayer Hoffman McCann P.C.
         Conrad Government Services Division
            2301 Dupont Drive, Suite 200
               Irvine, California 92612


This report was issued to Corporation management on October 23, 2006. Under the laws
and regulations governing audit follow-up, the Corporation is to make final management
decisions on the report’s findings and recommendations no later than April 23, 2007, and
complete its corrective actions by October 23, 2007. Consequently, the reported findings
do not necessarily represent the final resolution of the issues presented.
                           OFFICE OF INSPECTOR GENERAL
          Audit of Corporation for National and Community Service Grants Awarded
                                     to Volunteer Florida
                                   OIG Audit Report 07-07

OIG Summary
The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), retained Mayer Hoffman McCann P.C. (MHM) to perform an incurred-cost audit
of grants awarded to Volunteer Florida.

The grantees claimed costs of $11,992,968 of which the auditors questioned $441,639 as
unallowable grant costs and $65,929 of education awards. Overall, the auditors questioned
approximately 3.7 percent of claimed grant costs. Costs questioned for allowability represents
an alleged violation or provision of law, regulation, grant or other agreement governing the
expenditure of funds; a finding that, at the time of the audit, certain costs were not supported by
adequate documentation; or a finding that the expenditure of funds for the intended purpose was
unnecessary or unreasonable. The auditors also noted numerous and pervasive instances of
noncompliance with provisions of Federal laws, regulations and grant award provisions.

In an effort to resolve many of the audit issues as soon as possible, including issues that exist
beyond the audit period, we issued a memorandum to the Corporation’s Chief Executive Officer
and Chief Operating Officer. In our memorandum, we recommended that the Corporation
clarify the administrative grant restrictions, especially those concerning staff travel, including
that of the executive director, and the relationship with the Florida Volunteer Foundation. We
also recommended that the Corporation obtain a comprehensive action plan from Volunteer
Florida to address the pervasive compliance issues involving Volunteer Florida and many of its
subgrantees.

The Corporation took action and, in June 2006, a team from the Program Office and the Office
of Grants Management was sent to Volunteer Florida to conduct concurrent monitoring. We
received a site visit report from the Corporation that included many suggested activities for the
Commission and the Corporation. We will review the actions and decisions of both entities
during the audit resolution period.

In accordance with our statutory responsibilities, we reviewed MHM’s report and related audit
documentation, interviewed their representatives, and performed other procedures, as we deemed
appropriate in the circumstances to provide reasonable assurance that the audit was performed in
accordance with generally accepted government auditing standards. Our review was not
intended to enable us to express, and we do not express, opinions on the Grantee’s Consolidated
Schedule of Award Costs, or conclusions on internal controls and on compliance with laws and
regulations. MHM is responsible for the attached reports dated March 3, 2006, and the
conclusions expressed therein. However, our review disclosed no instances where MHM did not
comply, in all material respects, with generally accepted government auditing standards.

                     1201 New York Avenue, NW Suite 830, Washington, DC
                                            20525
                     202-606-9390 Hotline: 800-452-8210 www.cncsig.gov
The Office of Inspector General provided officials of Volunteer Florida and the Corporation
with copies of the draft of this report for their review and comment. Volunteer Florida and
the Corporation’s written responses are included as Appendices A and B, respectively.

This report is a matter of public record, and its distribution is not limited.
                   Audit of Corporation for National and Community Service
                             Grants Awarded to Volunteer Florida
                                     Tallahassee, Florida

                                              TABLE OF CONTENTS

                                                                                                                          Page
REPORT SUMMARY AND HIGHLIGHTS

        Executive Summary ............................................................................................. 1

        Background .......................................................................................................... 2

        Objectives, Scope, and Methodology .................................................................. 4

        Grant Programs Audited ...................................................................................... 5

        Costs Questioned ................................................................................................. 5

        Compliance and Internal Control Findings........................................................... 7

INDEPENDENT AUDITOR'S REPORT ....................................................................... 8

FINANCIAL SCHEDULES

        Consolidated Schedule of Award Costs ............................................................... 10

        Notes to Consolidated Schedule of Award Costs ................................................ 11

        Exhibit A – Schedule of Award Costs: AmeriCorps .......................................... 12

       Schedule A-1 – Communities in Schools of Miami ............................................. 13

       Schedule A-2 – Community Integration ............................................................... 16

       Schedule A-3 – Dignity Project ............................................................................. 18

       Schedule A-4 – School Board of Gadsden County................................................ 19

       Schedule A-5 – Communities in Schools of Florida ............................................ 20

       Schedule A-6 – Non-Violence Project................................................................... 22
                 Audit of Corporation for National and Community Service
                           Grants Awarded to Volunteer Florida
                                   Tallahassee, Florida

                                TABLE OF CONTENTS (CONTINUED)
                                                                                                                Page
      Schedule A-7 – Listen to Children......................................................................... 23

      Schedule A-8 – Bethune Cookman –
        Florida Agricultural & Mechanical University................................................. 24

      Schedule A-9 – Florida Department of Elder Affairs............................................ 25


       Exhibit B – Schedule of Award Costs: Special Volunteer ................................. 26

       Exhibit C – Schedule of Award Costs: Administrative ...................................... 27

       Exhibit D – Schedule of Award Costs: PDAT .................................................... 29

       Exhibit E – Schedule of Award Costs: Emergency Preparedness ...................... 31

       Exhibit F – Schedule of Award Costs: Disability ............................................... 32

Report on Compliance and Other Matters and on Internal
  Controls over Financial Reporting Based on an Audit of Financial
  Schedules Prepared in Accordance with Government Auditing Standards .................. 33

       Compliance Findings ............................................................................................ 35

       Internal Control Finding ...................................................................................... 62

APPENDICES

       A: Response to the Draft Report by Volunteer Florida

       B: Response to the Draft Report by Corporation for National and
          Community Service
REPORT SUMMARY AND HIGHLIGHTS
                                                                                            CERTIFIED PUBLIC ACCOUNTANTS

ASSOCIATES, L . . m                                                                                          2301 DUPONT DRIVE, SUITE 200
                                                                                                                  IRVINF, CALIFORNR 92612
                                                                                                                              (949) 4744020
                                                                                                                          Fax 1949) 263-5520




   Office of Inspector General
   Corporation for National and Community Service


   This report is issued under an Office of Inspector General (OIG) engagement with Conrad
   and Associates, L.L.P. to audit the costs claimed by Volunteer Florida (Commission) and its
   subgrantees from January 1,2002, through September 30,2005, under the grants awarded by
   the Corporation for National and Community Service (Corporation). This report focuses on
   the audit of claimed costs, instances of noncompliance with Federal laws, applicable
   regulations or award conditions, and internal control weaknesses disclosed during the audit.

                                                     Executive Summarv

   Our interaction with the Commission's upper management revealed a lack of understanding
   of cost principles, grant provisions and general grant accounting guidelines. We determined
   the cause for these findings to be a failure to properly monitor the fiscal activities of its
   subgrantees. More importantly, we observed the overall focus of the Commission was
   primarily that of establishing relationships with Volunteer Centers throughout the state of
   Florida, and other non-ArneriCorps activities, rather than assisting its AmeriCorps
   subgrantees. Several subgrantees were unaware of grant provisions and laws and regulations,
   and were not provided guidance from the Commission. We noted that the Commission's
   tendency was to not renew subgrantees that had problems rather than assist them in
   corrective actions.

   As a result of our audit, we are questioning grant costs of $441,639 and education awards of
   $65,929. We are also questioning match costs claimed. Some of the questioned match costs
   were claimed in excess of the minimum match required. A questioned cost is an alleged
   violation of provision of law, regulation, contract, grant, cooperative agreement, or other
   agreement or document governing the expenditure of funds, a finding that, at the time of the
   audit, such cost is not supported by adequate documentation; or a finding that the expenditure
   of funds for the intended ptupose is unnecessary or unreasonable.

   Our audit included fieldwork at the Commission as well as testing a selkt number of
   subgrantees. We performed full-scope testing at seven subgrantees as well as limited scope
   testing at two subgrantees. The results of this audit revealed deficiencies at all but one
   subgrantee location. The deficiencies include:

                 lack of an audit trail froin subgrantee accounting system to costs claimed;
                 lack of criminal background checks;



                           MEMBERS OF ACPA A N D CZLIFORN14 SCCICTY 0 1 CERTlr ED PLBLC ACCOL h l A h T S
         M Z M B E R O F * M [ R C A % I h S T I T U X Of CfUTlFltD PUB1 C A C r O L W A \ T S PRIVATE COMPAhlFS PRNTTICf WTION
     •     late reporting of financial and member data;
     •     member timesheet exceptions;
     •     lack of staff timesheets;
     •     costs claimed based on budgets; and
     •     unsupported match costs claimed.

Deficiencies identified at the Commission include:

     •     costs claimed which were unnecessary and unreasonable;
     •     costs claimed outside of the scope and in excess of the award budget;
     •     costs claimed not allocable to the grant;
     •     costs claimed which did not comply with the cost principles;
     •     costs claimed that were for the benefit of another non-profit entity, Volunteer
           Florida Foundation; and
     •     supplemental funding of disaster efforts pre-paid from Corporation funds and
           reimbursed by the Federal Emergency Management Agency.

AmeriCorps members who successfully complete terms of service under AmeriCorps grants
are eligible for Education Awards from the National Service Trust. These award amounts are
not funded by Corporation grants and thus are not included in claimed costs. However, as
part of our audit, we determined the effect of audit findings on Education Award eligibility.
Using the same criteria described above, we questioned Education Awards of $65,929.

In addition the individual recommendations contained in this report, the Corporation should
develop a comprehensive action plan to address and correct the deficiencies noted in this
report. The action plan must include all subgrantees including those not audited during this
engagement.

The report includes 10 findings and recommendations to improve the Commission’s internal
controls and compliance with grant provisions.

                                        Background

The Corporation, pursuant to the authority of the National Community Service Trust Act of
1993, as amended, awards grants and cooperative agreements to State commissions, such as
Volunteer Florida, and other entities to assist in the creation of full-time and part-time
national and community service programs.

The Commission is a division within the State of Florida’s Governor’s Office and is
headquartered in Tallahassee, Florida. It currently employs eighteen full-time staff, three
part-time staff and an Executive Director. Its employees are employed by the Tallahassee
Community College, which also acts as the Commission’s fiscal agent.

As illustrated in the following table, the Commission has received in excess of $18 million in
funding for various Corporation programs, and has claimed costs of approximately $12


                                              2
million. Of the amount of funding received, the Commission awarded in excess of $12
million to subgrantees, including departments within Florida’s State Government, local
municipalities and nonprofit entities.

                                                                         Drawdowns
                                                                           During
                                           Funding        Audit Period     Audit
              Award/Program               Authorized       Claimed         Period

 03ACHFL001 – AmeriCorps –
    Competitive                          $ 3,182,858      $ 2,369,093     $1,457,679
 03AFHFL001 – AmeriCorps – Formula            8,433,294     6,015,919      4,235,707
 02AHHFL010 – AmeriCorps – State
    Homeland Security
                                               731,033        197,808       216,410
     Total AmeriCorps Funds                12,347,185       8,582,820      5,909,796

 02SVHFL008 – Special Volunteer
    Program                                    984,000        501,643       610,279

 01SCSFL009 – Administrative                  1,678,750     1,060,267     1,319,986
 04CAHFL001 – Administrative                  1,198,265       879,737       742,146
    Total Administrative Funds                2,877,015     1,940,004     2,062,132

 02PDSFL009 – PDAT**                           460,788       254,424       246,794
 05PTHFL001 – PDAT**                           155,000        85,646        22,653
    Total PDAT Funds                           615,788       340,070       269,447

 04SVSFL001 – Emergency
    Preparedness Outreach                      408,351        78,049        11,218

 01APSFL010 – Promise Fellows                  402,000       242,589       193,899

 03CDHFL001 – Disability                       554,446       307,793       291,294
    Total – Grants Administered by the
             Commission                  $ 18,188,785     $11,992,968*   $9,348,065*

* The differences between the amount claimed and the amount drawn down are generally
   due to timing issues.
** Program Development and Training (PDAT) Funds




                                          3
                           Objectives, Scope, and Methodology

We performed our audit during the period November 7, 2005, through March 3, 2006, and
used methodologies we deemed appropriate for the scope of the audit. Our Independent
Auditor’s Report and our Independent Auditor’s Report on Compliance and Other Matters
and Internal Control provides additional details about the scope and methodology. The
objectives of our audit were to determine whether:

       •   the Commission’s financial reports fairly presented the financial results of the
           awards;

       •   internal controls were adequate to safeguard Federal funds;

       • the Commission had adequate procedures and controls to ensure compliance with
         Federal laws, regulations, and award conditions, as well as ensure that member
         services were appropriate;

       •   award costs reported to the Corporation were documented and allowable in
           accordance with the award terms and conditions; and

       •   the Commission had established adequate oversight and informed subgrantees of
           the Corporation’s Government Performance and Results Act (GPRA) goals.

We performed the audit in accordance with auditing standards generally accepted in the
United States of America and generally accepted government auditing standards issued by
the Comptroller General of the United States. Those standards require that we plan and
perform the audit to obtain reasonable assurance about whether the amounts claimed against
the awards, as presented in the Consolidated Schedule of Award Costs, are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the Consolidated Schedule of Award Costs. An audit also includes
assessing the accounting principles used and significant estimates made by the auditee, as
well as evaluating the overall financial schedule presentation. Our audit included reviews of
audit reports prepared by the independent public accountants for the subgrantees in
accordance with the requirements of OMB Circular A-133, Audits of States, Local
Governments and Non-profit Organizations. We believe our audit provides a reasonable
basis for our opinion.

The audit scope included reviewing the financial status reports for the two most recently
completed years. However, as a result of our testing, we expanded our scope under grant
01SCSFL009 to three years in order to quantify the entire effect of Compliance Finding
Number 3A.




                                             4
 The contents of this report were disclosed to and discussed with the Commission at an exit
 conference held on April 3, 2006. In addition, we provided a draft of this report to the
 Commission and to the Corporation for comment on July 17, and received responses from
 the Corporation and the Commission on August 24, 2006 and August 25, 2006, respectively.
 Their responses are included as Appendices A and B, respectively.

                                 Grant Programs Audited

 Our audit of the Commission covered financial transaction and compliance and internal
 controls testing of the following program awards funded by the Corporation:

      Program               Award Number            Award Period            Audit Period
AmeriCorps                  03ACHFL001           08/11/03 to 08/10/06   10/01/03 to 09/30/05
AmeriCorps                  03AFHFL001           09/05/03 to 09/04/06   10/01/03 to 09/30/05
AmeriCorps                  02AHHFL010           01/01/03 to 04/30/06   10/01/03 to 09/30/05
Special Volunteer Program   02SVHFL008           07/29/02 to 12/31/05   09/01/03 to 08/31/05
Administrative              01SCSFL009           01/01/01 to 12/31/03   01/01/02 to 12/31/03
Administrative              04CAHFL001           01/01/04 to 12/31/06   01/01/04 to 06/30/05
PDAT                        02PDSFL009           01/01/02 to 05/31/05   06/01/03 to 05/31/05
PDAT                        05PTHFL001           01/01/05 to 12/31/07   01/01/05 to 06/30/05
Emergency Preparedness      04SVSFL001           09/30/04 to 09/29/07   10/01/04 to 09/30/05
Promise Fellows             01APSFL010           07/01/01 to 08/31/05   09/01/03 to 08/31/05
Disability                  03CDHFL001           01/01/03 to 12/31/05   07/01/03 to 06/30/05

                                     Costs Questioned

 The following summarizes the costs questioned on these awards:
    AmeriCorps Grants
      Unsupported Staff Personnel Costs                                      $ 207,473
      Unsupported Member Living Allowances                                      40,688
      Member Living Allowances Claimed Greater than 85% Ceiling                  1,376
      Reconciling Differences Between Costs Claimed and Support                 13,416
      Costs Claimed Prior to Grant Award                                         2,107
      Costs not Allocable to the Grant                                           6,891
      Unallowable Member Living Allowances                                       1,325
      Reimbursements not Credited to the Grant                                     189
      Gift Claimed to the Grant                                                     50
      Unallocable Tallahassee Community College Administrative                   2,700
      Fees
          Subtotal                                                           $   276,215




                                             5
   Administrative Grants
     Unallocable Labor                                                          $ 97,690
     Travel not allocable or unallowable                                          19,087
     Unallocable Federal Emergency Management Agency (FEMA)                        5,031
     Effort
     Consulting Fees Exceeding $443 per day                                        1,020
     Consulting Fees not in Award Budget                                           6,452
     Unnecessary and Unreasonable Labor                                            2,796
     Unallowable Costs Claimed to the Grant                                          971
        Subtotal                                                                 133,047

   PDAT Grants
     AmeriCorps Training Event not in Award Budget                                 19,931
     Entertainment Costs Claimed to the Grant                                       1,242
     Meals Exceeding Allowed Per-Diem                                               8,945
     Unallocable FEMA Effort                                                          189
        Subtotal                                                                   30,307
   Disability Grant
      Unallowable Advertising                                                         300
          Subtotal                                                                    300
   Operation Step-Up Grant
     Unallocable FEMA Effort                                                        1,446
     Unnecessary and Unreasonable Labor                                                86
        Subtotal                                                                    1,532
   Emergency Preparedness Grant
     Unallocable FEMA Effort                                                          238
        Subtotal                                                                      238
  Total Grant Costs Questioned                                                  $441,639
  Education Awards Questioned                                                   $ 65,929

We used a judgmental sampling method to test the costs claimed. Based upon this sampling
plan, questioned costs in this report may not represent total costs that may have been
questioned had all expenditures been tested. In addition, we have made no attempt to project
such costs to total expenditures incurred, based on the relationship of costs tested to total
costs. For a complete discussion of these questioned costs, refer to the Independent
Auditor’s Report.




                                             6
                                      Compliance

Our audit disclosed the following instances of noncompliance with Federal laws, applicable
regulations and award conditions:

   1. The Commission did not have adequate financial monitoring or other procedures in
      place to ensure that its subgrantees claimed costs in accordance with the cost
      principles and grant provisions.

   2. The Commission did not have adequate procedures in place to ensure that the
      subgrantees documented member eligibility, and that members completed the service
      hours required to earn an education award.

   3. The Commission did not have adequate procedures in place to ensure that it claimed
      allocable costs to the grants.

   4. The Commission did not have adequate procedures in place to ensure that it claimed
      costs to grant match which were allowable, allocable and reasonable.

   5. The Commission did not have adequate financial monitoring procedures or other
      procedures in place to ensure that staff travel costs charged to the grants were
      allowable, allocable, and reasonable.

   6. The Commission claimed meals that exceeded established per-diem rates.

   7. The Commission did not have adequate controls in place to ensure that cost claimed
      were necessary and reasonable.

   8. The Commission did not monitor subgrantees for compliance with grant provisions.

   9. The Commission’s Executive Director did not record Annual and Sick Leave when
      absent from work.


                                    Internal Control

   10. Timekeeping for Commission staff who claimed effort to more than one grant did not
       meet Office of Management and Budget (OMB) and grant timekeeping requirements.




                                            7
                                                                                     CERTIFIED PUBLIC ACCOUNTANTS


                                                                                                                       1949) 474-2020
                                                                                                                   Far (949) 263-5520



 Office of Inspector General
 Corporation for National and Community Service

                                 INDEPENDENT AUDITOR'S REPORT

 We have audited the costs incurred by Volunteer Florida for the award numbers listed below.
 These costs, as presented in the Consolidated Schedule of Award Costs and the grant-specific
 Schedules of Award Costs (Exhibits A through F), are the responsibility of Volunteer Florida
 management. Our responsibility is to express an opinion, based on our audit, on the
 Consolidated Schedule of Award Costs.


      Prorrram            Award Number                               Award Period                       Audit Period
AmeriCorps                03ACHFL001                              08111/03 to 08/10/06              10/01/03 to 09/30/05
AmeriCorps
AmeriCorps
Special Volunteer Program
Administrative
Administrative
PDAT
PDAT
Emergency Preparedness
Promise Fellows
Disability


We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and generally accepted government auditing standards issued by
the Comptroller General of the United States. Those standards require that we plan and
perform the audit to obtain reasonable assurance about whether the financial schedules are
Eree of material misstatement. An audit includes examining, on a test basis, evidence
supporting the amounts and disclosures in the financial schedules. An audit also includes
assessing the accounting principles used and significant estimates made by management, as
well as evaluating the overall financial schedule presentation. We believe our audit provides
a reasonable basis for our opinion.




                  MLMBEKS O F AICP9 A N D CALIFORh,A 5 X . m O F CERTIF ED PL BLlC ACCOUhTAh'lS
      MEMBER O F A M l R C 4 N IhSTITL1lC O F CERTIFIED PLRLK ACCOUNTAP.15 PRI\ATE C O M P A ~ I E SPRACTICE SECTION
In our opinion, except for the $441,639 in questioned grant costs discussed above, the
Consolidated Schedule of Award Costs and the grant-specific Schedules of Award Costs
(Exhibits A through F and related Schedules) referred to above present fairly, in all material
respects, the costs claimed for the period January 1, 2002, to September 30, 2005, in
conformity with generally accepted accounting standards in the United States of America.

In accordance with the Government Auditing Standards, we have also issued our report,
dated March 3, 2006, on our consideration of Volunteer Florida's internal controls over
financial reporting and on our tests of its compliance with certain provisions of laws,
regulations, contracts, and grant agreements and other matters. The purpose of that report is
to describe the scope of our testing of internal control over financial reporting and
compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. That report is an integral part of an audit
performed in accordance with Government Auditing Standards and should be considered in
assessing the results of our audit.




Conrad and Associates, L.L.P.
Irvine, California
March 3,2006
                  Corporation for National and Community Service Awards
                                     Volunteer Florida
                           Consolidated Schedule of Award Costs

                               January 1, 2002, to September 30, 2005


                                                                                    Questioned
  Award                                 Approved           Claimed     Questioned   Education
  Number            Program              Budget             Costs        Costs       Awards      Reference

03ACHFL001   AmeriCorps                 $ 3,182,858    $ 2,369,093     $ 16,804      $ 9,450
03AFHFL001   AmeriCorps                   8,433,294      6,015,919      255,850       56,479
             AmeriCorps – State
02AHHFL010   Homeland Security              731,033          197,808      3,561            -
                Total AmeriCorps         12,347,185        8,582,820    276,215       65,929     Exhibit A

02SVHFL008   Special Volunteer             984,000           501,643      1,532            -     Exhibit B

01SCSFL009   Administrative               1,678,750        1,060,267     85,023
04CAHFL001   Administrative               1,198,265          879,737     48,024            -
              Total Administrative        2,877,015        1,940,004    133,047            -     Exhibit C

02PDSFL009   PDAT                          460,788           254,424      8,604            -
05PTHFL001   PDAT                          155,000            85,646     21,703            -
                Total PDAT Funds           615,788           340,070     30,307            -     Exhibit D

04SVSFL001   Emergency                     408,351            78,049        238            -     Exhibit E
             Preparedness

01APSFL010   Promise Fellows               402,000           242,589          -            -

03CDHFL001   Disability                    554,446           307,793        300            -     Exhibit F

                               Totals   $18,188,785    $11,992,968     $441,639      $65,929




                                                      10
               Corporation for National and Community Service Awards
                                  Volunteer Florida
                   Notes to Consolidated Schedule of Award Costs

                        January 1, 2002, to September 30, 2005

Reporting Entity

The accompanying consolidated Schedule of Award Costs includes amounts budgeted,
claimed, and questioned under AmeriCorps, Administrative, Program Development and
Training (PDAT), and other grants awarded to Volunteer Florida (Commission) by the
Corporation for the period from January 1, 2002, to September 30, 2005.

The Commission awards its AmeriCorps grant funds to numerous subgrantees that
administer AmeriCorps programs and report financial and programmatic results to the
Commission.


Basis of Accounting

The accompanying Schedule has been prepared to comply with the provisions of the grant
agreements between the Corporation and the Commission. The information presented in the
Schedule has been prepared from the reports submitted by the Commission to the
Corporation. The basis of accounting used in preparation of these reports differs slightly
from accounting principles generally accepted in the United States of America as follows:

       Equipment
       Equipment is charged to expense in the period during which it is purchased instead of
       being recognized as an asset and depreciated over its useful life. As a result, the
       expenses reflected in the Schedule of Award Costs include the cost of equipment
       purchased during the period rather than a provision for depreciation. The equipment
       acquired is owned by the Commission while used in the program for which it was
       purchased or in other future authorized programs. However, the Corporation has a
       reversionary interest in the equipment. Its disposition, as well as the ownership of
       any proceeds there from, is subject to Federal regulations.

       Inventory
       Minor materials and supplies are charged to expense during the period of purchase.




                                            11
                                                                                           Exhibit A
                                         Volunteer Florida
                               Schedule of Award and Claimed Costs
                            03ACHFL001, 03AFHFL001 and 02AHHFL010
                               October 1, 2003, to September 30, 2005

                                                                                Questioned
                                                      Claimed      Questioned   Education
Detailed Audit of AmeriCorps Grants                    Costs         Costs       Awards        Reference

Subgrantees
Communities in Schools of Miami*                      $ 478,704     $16,637       $9,450      Schedule A-1
Leon County Schools                                      476,530          -            -
Department of Environmental Protection                   835,949          -            -
Okaloosa-Walton Community College                        380,377          -            -
Polk Reads                                               173,571          -            -
Brevard Alzheimer’s Foundation                           219,302          -            -
Community Integration*                                   219,402      2,083        5,245      Schedule A-2
Osceola County Council on Aging                           94,870          -            -
St. Petersburg College                                   125,270          -            -
Centro Campesino                                          77,864          -            -
Communities in Schools of Putnam Co.                     250,856          -            -
Dignity Project*                                         409,147     23,850        2,363      Schedule A-3
Florida Department of Elder Affairs – ElderServe         174,320          -
One Room School House                                     54,513          -
Okaloosa-Walton Community College                        160,838          -
School Board of Gadsden County*                          511,369          -        4,725      Schedule A-4
Polk Education Foundation                                136,951          -
Florida Dept. of Elder Affairs – Care and Repair          45,982          -            -
Communities in Schools of Florida*                     2,438,641    225,850       18,900      Schedule A-5
Hillsborough Education Foundation – PowerUp               47,326          -
Hillsborough Education Foundation –
     Hillsborough Reads                                  190,945         -
Non-Violence Project**                                   162,899         -        25,246      Schedule A-6
Listen to Children*                                       73,311     1,491                    Schedule A-7
Habitat for Humanity                                     132,230         -
Bethune Cookman**                                        234,230        43                    Schedule A-8
HARC                                                     116,081         -
Clearwater Police Department                              83,435         -             -
Florida Department of Elder Affairs*                     197,808     3,561                    Schedule A-9
Tallahassee Community College – Indirect Costs            80,099     2,700             -      Note
                                  Subgrantee Total    $8,582,820 $ 276,215      $ 65,929

   Note - The Commission claims one percent of all costs on the competitive and formula grants
   for the administrative burden incurred by TCC. We questioned the application of the one
   percent administrative fee to the questioned costs identified on these grants, totaling $2,700.

   *   Selected for Full-scope Testing        ** Limited Scope Testing


                                                     12
                                                                         Schedule A-1
                                                                           Page 1 of 3

                             VOLUNTEER FLORIDA
                              Schedule of Award Costs
                         Award Number 03ACHFL0010002
                        October 1, 2003, to September 30, 2005

                          Communities in Schools of Miami

                                                                            Reference

Approved Budget (Federal Funds)                              $944,322         Note 1
Claimed Costs                                                $478,704         Note 2
Questioned Costs:
   Member Living Allowances &
       Fringe Benefits due to Missing Timesheets  $7,321                      Note 3
   Member Living Allowances Claimed
       in Excess of Established Ceiling              921                      Note 4
   Costs Claimed prior to the start of the grant   2,074                      Note 5
   Supply Costs Claimed Twice                      1,204                      Note 6
   Costs Claimed without Supporting Documentation    627                      Note 7
   Costs Claimed not Allocable to the Grant        4,440                      Note 8
   Costs Claimed for Purchase of a Gift               50                      Note 9
Total Questioned Costs                                       $ 16,637
Questioned Education Awards:
   Service Hours not achieved                       $9,450                    Note 10

Total Questioned Education Awards                            $   9,450

Notes

1. The amount shown above as Approved Budget represents the total funding to
   Communities in Schools of Miami according to budget schedules.

2. Claimed costs represent Communities in Schools of Miami’s reported expenditures for
   the period October 1, 2003, through September 30, 2005.

3. Living allowances were claimed for members whose timesheets were missing as shown
   in the table below. (See Compliance Finding No. 1.)




                                         13
                                                                                       Schedule A-1
                                                                                         Page 2 of 3

                                         VOLUNTEER FLORIDA
                                          Schedule of Award Costs
                                     Award Number 03ACHFL0010002
                                    October 1, 2003, to September 30, 2005

                                      Communities in Schools of Miami

  Member           Period (s)          Condition     Federal       Federal      Living         Fringe
                                                      Share         Share      Allowance       Benefit
                                                     Living        Fringe       Match          Match
                                                    Allowance      Benefits
Member 1       June 15 – June 30       Missing        $ 765          $ 59         $ 135         $10
                 & August 16 –        Timesheets
                August 31, 2004
Member 2        June 15 – August       Missing         1,913          146           338          26
                    31, 2004          Timesheet
Member 3        July 1 – July 31,      Missing            765           59          135          10
                      2004            Timesheets
Member 4       June 15 – August        Missing         2,211          169           390          30
                    31, 2004          Timesheet
Member 5       June 15 – June 30       Missing         1,147           87           202          16
                 2004 & August        Timesheets
                16 – August 31,
                      2004
TOTAL                                                 $6,801         $520        $1,200         $92


        4. Living allowances were claimed in excess of the established 85 percent ceiling in seven
           instances. (See Compliance Finding No. 1.)

        5. Costs for temporary agency fees, program evaluations and the lease of a copier machine
           were claimed for services received prior to the start of the grant period. (See Compliance
           Finding No. 1.)

        6. Supply costs were charged twice in error. (See Compliance Finding No. 1.)

        7. Costs were charged to the grant for which supporting documentation could not be
           located. (See Compliance Finding No. 1.)




                                                     14
                                                                              Schedule A-1
                                                                                Page 3 of 3

                              VOLUNTEER FLORIDA
                               Schedule of Award Costs
                          Award Number 03ACHFL0010002
                         October 1, 2003, to September 30, 2005

                            Communities in Schools of Miami

8. Costs for local travel ($65), health insurance for non-AmeriCorps staff ($760), and labor
   for the Development Director and Fiscal Manager of $3,615 were claimed to the grant.
   These costs, however, were not allocable to the grant. (See Compliance Finding No. 1.)

9. The cost for the purchase of a gift for the departing program director was charged to the
   grant. (See Compliance Finding No. 1.)

10. Variances between service hours claimed in WBRS as compared to member timesheets
    were identified. Two members received education awards without meeting the minimum
    service hour requirements. (See Compliance Finding No. 2.C.)




                                            15
                                                                           Schedule A-2
                                                                             Page 1 of 2

                             VOLUNTEER FLORIDA
                              Schedule of Award Costs
                         Award Number 03AFHFL0010017
                        October 1, 2003, to September 30, 2005

                                Community Integration

                                                                               Reference

Approved Budget (Federal Funds)                                   $490,892      Note 1
Claimed Costs                                                     $219,402      Note 2
Questioned Costs:
   Member Living Allowances due to Missing
       Proof of Citizenship                          $1,147                     Note 3
   Costs not Reconciled to Supporting Documents         603                     Note 4
   Worker’s Compensation Claimed in Error               205                     Note 5
   Reimbursement not Credited to the Grant               95                     Note 6
   Costs Claimed Prior to the Start of the Grant         33                     Note 7
Total Questioned Costs                                            $ 2,083

Questioned Education Awards:
   Partial Education Awards                          $5,245                     Note 8

Total Questioned Education Awards                                 $   5,245

Notes

1. The amount shown above as Approved Budget represents the total funding to Community
   Integration according to budget schedules.

2. Claimed costs represent Community Integration’s reported expenditures for the period
   October 1, 2003, through September 30, 2005.

3. Proof of citizenship of an AmeriCorps member was not available for review. As such, we
   questioned the claimed living allowances. (See Compliance Finding No. 1.)




                                           16
                                                                                Schedule A-2
                                                                                  Page 2 of 2

                               VOLUNTEER FLORIDA
                                Schedule of Award Costs
                           Award Number 03AFHFL0010017
                          October 1, 2003, to September 30, 2005

                                  Community Integration

4. Costs claimed were not supported by adequate documentation. As such, we have
   questioned the costs which were unsupported. (See Compliance Finding No. 1.)

5. Our review of worker’s compensation revealed that costs for member’s workers
   compensation was charged to the grant in error, causing an overstatement to the grant of
   $205. (See Compliance Finding No. 1.)

6. A reimbursement check had not been properly credited to the grant, causing an
   overstatement of costs charged to the grant of $95. (See Compliance Finding No. 1.)

7. Registration fees of $33 for an event that took place prior to the start of the grant period
   were charged to the grant. (See Compliance Finding No. 1.)

8. Partial education awards were certified for two members who left the program early.
   Required documentary justification of compelling circumstances for the early exit of the
   two members was not provided. As a result, we have questioned the awards. (See
   Compliance Finding No. 2.B.)




                                              17
                                                                                 Schedule A-3

                               VOLUNTEER FLORIDA
                                Schedule of Award Costs
                           Award Number 03AFHFL0010015
                          October 1, 2003, to September 30, 2005

                                       Dignity Project
                                                                                     Reference

Approved Budget (Federal Funds)                                      $711,433         Note 1
Claimed Costs                                                        $409,147         Note 2

Questioned Costs:
   Unsupported Staff Personnel Costs                     $22,664                      Note 3
   Costs Claimed Based on Estimates                        1,008                      Note 4
   Member Paid Without Serving Hours                         178                      Note 5
Total Questioned Costs                                               $ 23,850

Questioned Education Awards:
       Service Hour Miscalculation                       $ 2,363                      Note 6

Total Questioned Education Awards                                    $   2,363
Notes

1.   The amount shown above as Approved Budget amount represents the total funding to
     Dignity Project according to the budget schedules.

2.   Claimed costs represent Dignity Project’s reported expenditures for the period October
     1, 2003, through September 30, 2005.

3.   Costs claimed for the program director’s labor was not supported by timesheets. (See
     Compliance Finding No. 1.)

4.   Costs were charged to the grant based on estimated charges for the rental of Dignity
     Project’s facility. The adjustment to actual rent costs reflected an overstatement of costs
     claimed to the grant of $1,008. (See Compliance Finding No. 1.)

5.   An AmeriCorps member was paid a living allowance without serving any hours within
     the pay period. (See Compliance Finding No. 1.)

6.   Variances between service hours claimed in WBRS as compared to member timesheets
     were identified, indicating that a member received an education award without meeting
     the minimum service hour requirements. (See Compliance Finding No. 2.C.)

                                              18
                                                                         Schedule A-4

                             VOLUNTEER FLORIDA
                              Schedule of Award Costs
                         Award Number 03AFHFL0010001
                        October 1, 2003, to September 30, 2005

                           School Board of Gadsden County

                                                                            Reference

Approved Budget (Federal Funds)                              $929,950          Note 1
Claimed Costs                                                $511,369          Note 2

Questioned Education Award:
       Service Hour Miscalculation                  $4,725                     Note 3

Total Questioned Education Awards                            $   4,725
Notes

1.   The amount shown above as Approved Budget amount represents the total funding to
     the School Board of Gadsden County according to the budget schedules.

2.   Claimed costs represent Gadsden County’s reported expenditures for the period
     October 1, 2003, through September 30, 2005.

3.   An education award was granted to a member who did not fulfill the minimum number
     of service hours. The award was granted based on timesheets that were incorrectly
     computed. (See Compliance Finding No. 2.C.)




                                         19
                                                                          Schedule A-5
                                                                            Page 1 of 2

                              VOLUNTEER FLORIDA
                             Schedule of Award Costs
                         Award Number 03AFHFL0010023
                        October 1, 2003, to September 30, 2005

                          Communities in Schools of Florida

                                                                              Reference

Approved Budget (Federal Funds)                                  $4,932,637     Note 1
Claimed Costs                                                    $2,438,641     Note 2
Questioned Costs:
   Unsupported Staff Personnel Costs            $ 184,809                       Note 3
   Unsupported Member Living Allowances            32,257                       Note 4
   Member Living Allowances Claimed
       in Excess of Established Ceiling               412                       Note 5
   Costs not Reconciled to Supporting Documents     8,372                       Note 6
Total Questioned Costs                                           $ 225,850
Questioned Education Awards:
       Service Hour Miscalculation               $ 18,900                       Note 7

Total Questioned Education Awards                                $   18,900
Notes

1. The amount shown above as Approved Budget amount represents the total funding to
   Communities in Schools of Florida according to the budget schedules.

2. Claimed costs represent Community in Schools’ reported expenditures for the period
   October 1, 2003, through September 30, 2005.




                                         20
                                                                                  Schedule A-5
                                                                                    Page 2 of 2

                                   VOLUNTEER FLORIDA
                                  Schedule of Award Costs
                              Award Number 03AFHFL0010023
                             October 1, 2003, to September 30, 2005

                               Communities in Schools of Florida

3.      The Community in Schools (CIS) State Administrative office in Tallahassee, Florida
        and a CIS site in Jacksonville, Florida did not require timesheets be prepared for its
        administrative staff. As a result, the costs claimed to the grant were unsupported and
        thus questioned as shown in the table below (See Compliance Finding No. 1.):


                    Location                     Personnel                      Amount
                                         State Coordinator, Office
                 CIS State Office        Manager & State Director              $ 149,675
                  CIS – Duval                 Program Director                    35,134
                    TOTAL                                                      $ 184,809

 4. The Communities in Schools – Dade Education Fund claimed member living allowance
     and fringe benefit costs for 13 members whose timesheets were not available for review.
     As a result, we have questioned the $32,257 of costs. (See Compliance Finding No. 1.)

 5.     Costs claimed for CIS – Broward member living allowances exceeded the allowable
        Federal share ceiling of 85 percent by $ 412. As a result, we have questioned the excess
        costs as unallowable. (See Compliance Finding No. 1.)

 6.     There was a lack of audit trail for costs claimed by CIS – Leon, in Tallahassee. Costs
        claimed exceeded supporting documentation by $8,372. As a result, we have questioned
        the costs. (See Compliance Finding No. 1.)

     7. Education awards granted to five members who lacked supporting timesheets were
        questioned because their service hours could not be verified. Questioned awards for the
        five members total $18,900. (See Compliance Finding No. 2.D.)




                                                21
                                                                               Schedule A-6

                               VOLUNTEER FLORIDA
                                Schedule of Award Costs
                           Award Number 03AFHFL0010012
                          October 1, 2003, to September 30, 2005

                                   Non-Violence Project

                                                                                  Reference

Approved Budget (Federal Funds)                                      $188,983        Note 1
Claimed Costs                                                        $162,899        Note 2


Questioned Education Awards:
       Service Hour Miscalculation                     $25,246                       Note 3

Total Questioned Education Awards                                    $ 25,246
Notes

1.   The amount shown above as Approved Budget amount represents the total funding to
     the Non-Violence Project according to the budget schedules.

2.   Claimed costs represent the Non-Violence Project’s reported expenditures for the period
     October 1, 2003, through September 30, 2005.

3.   Partial education awards were granted to nine members as a result of improper service
     hour recording guidance from the program director. For example, when a member
     mentored eight individuals for one hour, in a group setting, they would be credited with
     eight hours of service. The Commission determined that, because the error was the fault
     of the Non-Violence program director, a partial education award should be granted
     members after recalculating their actual service hours. This action, however, does not
     meet the AmeriCorps requirements of compelling circumstances. As a result, we have
     questioned the awards. (See Compliance Finding No. 2.B.)




                                             22
                                                                           Schedule A-7

                               VOLUNTEER FLORIDA
                                Schedule of Award Costs
                           Award Number 03AFHFL0010016
                          October 1, 2003, to September 30, 2005

                                    Listen to Children

                                                                             Reference

 Approved Budget (Federal Funds)                               $188,834         Note 1
 Claimed Costs                                                 $ 73,311         Note 2
 Questioned Costs:
    Costs not Reconciled to Supporting Documents    $ 1,397                    Note 3
    Reimbursement not Credited to the Grant              94                    Note 4

 Total Questioned Costs                                        $   1,491


 Notes

 1.   The amount shown above as Approved Budget amount represents the total funding to
      Listen to Children according to the budget schedules.

 2.   Claimed costs represent Listen to Children’s reported expenditures for the period
      October 1, 2003, through September 30, 2005.

 3.   Some costs charged to the grant were not supported by schedules or other
      documentation. As such, we have questioned the costs. (See Compliance Finding No.
      1.)

4.    A reimbursement check had not been properly credited to the grant, causing an
      overstatement of $94. (See Compliance Finding No. 1.)




                                           23
                                                                            Schedule A-8

                              VOLUNTEER FLORIDA
                               Schedule of Award Costs
                          Award Number 03AFHFL0010020
                         October 1, 2003, to September 30, 2005

                               Bethune Cookman College
                                Florida A&M University
                                                                               Reference

Approved Budget (Federal Funds)                                $1,321,756        Note 1
Claimed Costs                                                  $ 234,230         Note 2
Questioned Costs:
   Member Living Allowances Claimed
       in Excess of Established Ceiling          $       43                      Note 3

Total Questioned Costs                                         $       43

Notes

1.   The amount shown above as Approved Budget amount represents the total funding to
     Bethune Cookman according to the budget schedules.

2.   Claimed costs represent Bethune Cookman’s reported expenditures for the period
     October 1, 2003, through September 30, 2005.

3.   Costs charged for Bethune Cookman’s member living allowances specific to the
     Florida A&M University exceeded the Federal share ceiling of 85 percent by $43. As a
     result, we have questioned the excess costs. (See Compliance Finding No. 1.)




                                           24
                                                                             Schedule A-9

                              VOLUNTEER FLORIDA
                               Schedule of Award Costs
                          Award Number 02AHHFL0104801
                         October 1, 2003, to September 30, 2005

                           Florida Department of Elder Affairs

                                                                                 Reference

Approved Budget (Federal Funds)                                  $731,033          Note 1
Claimed Costs                                                    $229,234          Note 2
Questioned Costs:

     Fuel Costs Claimed in Error                   $    2,451                      Note 3
     Missing Member Timesheets                          1,110                      Note 4

Total Questioned Costs                                           $ 3,561

Notes

1.   The amount shown above as Approved Budget amount represents the total funding to
     the Florida Department of Elder Affairs according to the budget schedules.

2.   Claimed costs represent Florida Department of Elder Affair’s reported expenditures for
     the period October 1, 2003, through September 30, 2005.

3.   Fuel costs not allocable to the grant were charged in error. As a result, we have
     questioned $2,451. (See Compliance Finding No. 1.)

4.   Three member timesheets were missing. As a result, we have questioned living
     allowances totaling $1,110. These members did not complete their terms of service and
     did not earn an education award. (See Compliance Finding No. 1.)




                                            25
                                                                               Exhibit B

                              VOLUNTEER FLORIDA
                               Schedule of Award Costs
                            Award Number 02SVHFL008
                         September 1, 2003, to August 31, 2005

SPECIAL VOLUNTEER GRANT
                                                                             Reference

Approved Budget (Federal Funds)                                   $984,000       Note 1

Claimed Costs                                                     $501,643       Note 2

Questioned Costs:
   FEMA Costs not Allocable                           $1,446                     Note 3
   Unnecessary and Unreasonable Labor
   costs                                                  86                     Note 4

Total Questioned Costs                                            $ 1,532

Notes

1. The amount shown above as Approved Budget represents the total funding from July
   2002 through December 2005 per the budget schedules for the Volunteer Florida grant.

2. Claimed costs represent the amount of reported expenditures applicable to our audit
   period, September 1, 2003 through August 31, 2005.

3. Costs were charged to the grant for FEMA related efforts. The Commission negotiated a
   separate agreement with FEMA in which the Commission was to be reimbursed a portion
   of the costs. The questioned costs of $1,446 represent the portion that FEMA did not
   reimburse the Commission and which was passed on to the grant. (See Compliance
   Finding No. 3.B.)

4. The Commission’s Director of Emergency Service’s labor costs were claimed to the grant
   while the director was participating in lobbying Federal lawmakers. We considered this
   to be an unnecessary and unreasonable grant cost. (See Compliance Finding No. 4.)




                                           26
                                                                              Exhibit C
                                                                             Page 1 of 2

                             VOLUNTEER FLORIDA
                             Schedule of Award Costs
                    Award Number 01SCSFL009 and 04CAHFL001
                          January 1, 2002, to June 30, 2005


ADMINISTRATIVE GRANTS
                                                                           Reference

Approved Budget (Federal Funds)

        01SCSFL009                               $1,678,750
        04CAHFL001                                1,198,265

Total Budget – 3 Years                                        $2,877,015       Note 1

Claimed Costs                                                 $1,940,004       Note 2

Questioned Costs:
   Florida Foundation Costs not Allocable        $   97,690                    Note 3
   FEMA Costs not Allocable                           5,031                    Note 4
   Travel Costs                                      19,087                    Note 5
   Unnecessary and Unreasonable Labor
   costs                                              2,796                    Note 6
   Other Costs not Allocable                          8,443                    Note 7
Total Questioned Costs                                        $ 133,047

Questioned Match Costs                                        $ 124,464        Note 8

Notes

1. The amount shown above as Approved Budget represents the Federal funding for the two
   Administrative grants for the grant periods per the budget.

2. Claimed costs represent the amount of reported expenditures for the Administrative
   grants from January 1, 2002 through June 30, 2005.




                                            27
                                                                                 Exhibit C
                                                                                Page 2 of 2

                              VOLUNTEER FLORIDA
                              Schedule of Award Costs
                     Award Number 01SCSFL009 and 04CAHFL001
                           January 1, 2002, to June 30, 2005

3. Costs were claimed to the Corporation for administrative support resources provided by
   the Commission to a non-profit entity, Volunteer Florida Foundation, as shown below
   (See Compliance Finding No. 3.A.)

        01SCSFL009          01SCSFL009       04CAHFL001 04CAHFL001
                            State Funded                State Funded
                               Match                       Match
          $ 84,505            $ 22,329         $ 13,185   $ 79,373

4. Costs were claimed to the Corporation for Federal Emergency Management Agency
   (FEMA) related efforts. The Commission negotiated a separate agreement with FEMA in
   which they were to be reimbursed a portion of the costs. The questioned costs of $5,031
   represent the portion that FEMA did not reimburse the Commission which was charged to
   the grant. (See Compliance Finding No. 3.B.)

5. Claimed travel costs of $19,087 included costs not allocable to the grants, cost deemed
   unreasonable, costs not provided for in the budget, and costs associated with lobbying
   efforts. The costs included trips taken by the Commission’s Executive Director, the Chief
   of Staff and other personnel. (See Compliance Finding No. 5.)

6. The Executive Director’s labor costs were charged to the grant while she was involved in
   efforts considered unnecessary and unreasonable. (See Compliance Finding No. 4.)

7. Other costs totaling $8,443 were claimed to the Corporation which did not meet the cost
   principles or grant provisions. These costs included consulting fees exceeding the
   allowable limit, consulting fees not in the award budget, membership fees in civic
   organizations and various types of entertainment costs. (See Compliance Finding No. 7.)

8. Questioned match costs represent costs not allocable to the grant and costs deemed
   unallowable per the cost principles or grant provisions. (See Compliance Finding Nos. 6
   & 10.)




                                            28
                                                                                Exhibit D
                                                                               Page 1 of 2

                            VOLUNTEER FLORIDA
                             Schedule of Award Costs
                    Award Number 02PDSFL009 and 05PTHFL001
                           June 1, 2003, to June 30, 2005


PROGRAM DEVELOPMENT AND TRAINING GRANTS
                                                                               Reference

Approved Budget (Federal Funds)

        02PDSFL009                                $460,788
        05PTHFL001                                 155,000

Total Budget                                                        $615,788     Note 1

Claimed Costs                                                       $340,070     Note 2

Questioned Costs
   AmeriCorps Training Event                      $ 19,931                       Note 3
   FEMA Costs not Allocable                            189                       Note 4
   Meals Exceeding Per-Diem                          8,945                       Note 5
   Entertainment Costs                               1,242                       Note 6

Total Questioned Costs                                          $     30,307


Notes

1.   The amount shown above as Approved Budget represents the Federal funding for the
     two PDAT grants for the grant periods per the budget schedules for Volunteer Florida
     grants.

2.   Claimed costs represent the amount of reported expenditures of the PDAT grants from
     June 2003 through June 30, 2005.

3.   Costs of $19,931 were charged to the grant for an AmeriCorps training event not
     included in the budget or budget narrative. (See Compliance Finding No. 3.C.)




                                           29
                                                                                 Exhibit D
                                                                                Page 2 of 2

                             VOLUNTEER FLORIDA
                              Schedule of Award Costs
                     Award Number 02PDSFL009 and 05PTHFL001
                            June 1, 2003, to June 30, 2005

4.   Costs were claimed to the Corporation for FEMA-related efforts. The Commission
     negotiated a separate agreement with FEMA in which it was to be reimbursed a portion
     of the costs. The questioned costs of $189 represent the portion that FEMA did not
     reimburse the Commission. (See Compliance Finding No. 3.B.)

5.   Costs of meals totaling $8,945 were charged to the grant which exceeded the established
     per-diem rates used by Tallahassee Community College. (See Compliance Finding No.
     6.)

6.   Entertainment costs of $1,242 were charged to the grant for the AmeriCorps training
     event discussed in note 3. (See Compliance Finding No. 7.)




                                             30
                                                                                  Exhibit E

                              VOLUNTEER FLORIDA
                               Schedule of Award Costs
                             Award Number 04SVSFL001
                         October 1, 2004, to September 30, 2005


EMERGENCY PREPAREDNESS GRANT
                                                                      Reference

Approved Budget (Federal Funds)                    $ 408,351           Note 1

Claimed Costs                                      $    78,049         Note 2

Questioned Costs:
   FEMA Costs not Allocable                        $       238          Note 3

Total Questioned Costs                             $       238


Notes

1.   The amount shown above as Approved Budget represents the Federal funding for the
     Emergency Preparedness grant for the grant period per the budget schedules for
     Volunteer Florida grant.

2.   Claimed costs represent the amount of reported expenditures of the grant from October
     2004 through September 30, 2005.

3.   Costs were charged to the grant for FEMA-related efforts. The Commission negotiated
     a separate agreement with FEMA in which it was to be reimbursed a portion of the costs.
     The questioned costs of $238 represent the portion that FEMA did not reimburse the
     Commission. (See Compliance Finding No. 3.B.)




                                             31
                                                                                 Exhibit F
                              VOLUNTEER FLORIDA
                               Schedule of Award Costs
                             Award Number 03CDHFL001
                             July 1, 2003, to June 30, 2005

DISABILITY GRANT
                                                                                 Reference

Approved Budget (Federal Funds)                                  $   554,446        Note 1

Claimed Costs                                                    $   307,793        Note 2

Questioned Costs:
   Promotional Advertising Costs                                 $       300        Note 3

Total Questioned Costs                                           $       300

Notes

1. The amount shown above as Approved Budget represents the total funding from January
   2004 through December 2006 for the Disability grant periods per the budget schedules for
   the Volunteer Florida grants.

2. Claimed costs represent the amount of reported expenditures applicable to our audit
   period, July 2003 through June 2005.

3. Costs not provided for in the award budget were claimed to the grant, including a $300
   promotional advertising fee at a conference. Advertising costs are unallowable and, as
   such, are questioned. (See Compliance Finding No. 7.)




                                            32
                                                                            CERTIFIED PUBLIC ACCOUNTANTS

ASSOCIATES, L.L.P.                                                                        2301 DUPONT DRIVE, SUITE 200
                                                                                               IRVINE, CALIFORNIA 92612
                                                                                                            (949)474-2020
                                                                                                        Fax (949) 263-5520




   Office of Inspector General
   Corporation for National and Community Service

       REPORT ON COMPLIANCE AND OTHER MATTERS AND ON INTERNAL
        CONTROLS OVER FINANCIAL REPORTING BASED ON AN AUDIT OF
          FINANCIAL SCHEDULES PREPARED IN ACCORDANCE WITH
                   GOVERNMENTAUDITING S T N A R D S


   We have audited the Schedules of Award Costs, as presented in Exhibits A through F, that
   summarize the claimed costs of Volunteer Florida under the Corporation grants listed below,
   and have issued our report thereon, dated March 3,2006.


        Proaam              Award Number                       Award Period                   Audit Period
  AmeriCorps                03ACHFLOOl                      0811 1/03 to 08/10/06         10101/03 to 09/30/05
  AmeriCorps
  AmeriCorps
  Special Volunteer Program
  Administrative
  Administrative
  PDAT
  PDAT
  Emergency Preparedness
  Promise Fellows
  Disability

   We conducted our audit in accordance with auditing standards generally accepted in the
   United States of America and generally accepted government auditing standards issued by
   the Comptroller General of the United States.

                                     Com~lianceand Other Matters

   Compliance with laws, regulations, and the provisions of the awards is the responsibility of
   Volunteer Florida's management. As part of obtaining reasonable assurance about whether
   the financial schedules a& free of material misstatement, we performed tests of compliance




                    MEMBERSOF A l C P A A h D CALIFORNIA SOC.EN O F CERTlrltD PUBLIC ACCOLNTANrS
        MEMBER O F AMtKlCAh .VSTITLT[ O F CERTIFIED PLBLlC ACCOUhTAhTS PRlVAlE COMPANIES PKACTKE SECTION
with certain provisions of laws, regulations, and the terms and conditions of the awards,
noncompliance with which could have a direct and material effect on the determination of the
amounts on the financial schedules. However, providing an opinion on compliance with
those provisions was not an objective of our audit, and accordingly, we do not express such
an opinion. The results of our tests disclosed instances of noncompliance or other matters
that are required to be reported under Government Auditing Standards and which are
described in the Compliance Findings section of this report. Instances of noncompliance
include non-adherence to requirements, or violations of prohibitions contained in statutes,
regulations, and the award provisions.




                                            34
      Compliance Findings

      The results of our tests disclosed the following instances of noncompliance:

      1: The Commission did not have adequate financial monitoring or other procedures in
         place to ensure that its subgrantees claimed costs in accordance with OMB’s
         principles or grant provisions.

      In numerous instances, the Commission claimed costs that did not comply with OMB’s cost
      principles. We have questioned $276,215 of costs claimed to the Corporation as follows:

                                                                                      Federal
 _____Description                         Entity_____              Grant               Share    Criteria
Unsupported Costs                       CIS-Miami                03ACHFL001          $ 9,152      (1)
Costs Exceed Provision Limits           CIS-Miami                03ACHFL001               921     (2)
Prior to the Start of the Grant         CIS-Miami                03ACHFL001             2,074     (3)
Unallocable Costs                       CIS-Miami                03ACHFL001             4,440     (4)
Unallowable Costs                       CIS-Miami                03CAHFL001                50     (5)
  Subtotal Competitive Grant                                                           16,637

Lacking Citizenship Documents       Community Integration        03AFHFL001             1,147     (6)
Unsupported Costs                   Community Integration        03AFHFL001               903     (1)
Prior to the Start of the Grant     Community Integration        03AFHFL001                33     (3)
Unsupported Costs                      Dignity Project           03AFHFL001            23,850     (1)
Unsupported Costs                       CIS of Florida           03AFHFL001           225,438     (1)
Costs Exceed Provision Limits           CIS of Florida           03AFHFL001               412     (2)
Unsupported Costs                     Listen to Children         03AFHFL001             1,491     (1)
Costs Exceed Provision Limits     Bethune Cookman (FAMU)         03AFHFL001                43     (2)
   Subtotal Formula Grant                                                             253,317


Unallocable Costs                   Dept of Elder Affairs        02AHHFL010             2,451     (4)
Unsupported Costs                   Dept of Elder Affairs        02AHHFL010             1,110     (1)

 Subtotal Homeland Security
           Grant                                                                        3,561

                                     Tallahassee CC
                                   Administrative 1% Fee                                2,700


      TOTAL                                                                          $276,215




                                                    35
subgrantees. We recognize the fact that the Commission is working with the Corporation to
develop and implement corrective actions to the existing process. However, the fact that a
corrective action plan has been developed further supports our finding that weaknesses
existed. The errors identified during fieldwork were easily identifiable by the audit teams
and should have been easily identified by Commission monitoring. For these reasons, the
finding and recommendations remain as stated.


2: The Commission did not have adequate procedures in place to ensure that its
   subgrantees documented member eligibility, and that members completed the
   service hours required to earn the education award.

A. Eligibility Documentation

We found one instance at Community Integration where living allowances and fringe
benefits were paid to an AmeriCorps member whose file did not include proof of citizenship.
The costs of these living allowances and fringe benefits are questioned in Finding No.1.

B. Partial Education Awards

We found exceptions with certification of partial education awards as shown below:

                                                      Number of Partial      Education Awards
       Description                  Entity            Education Awards          Questioned
Member file did not contain       Community                   2                  $ 5,245
compelling documentation          Integration
Service hours claimed in         Non-Violence                  9                      25,246
error.                              Project
       Total                                                                         $30,491

Officials at Community Integration indicated that the files were missing “release for
compelling circumstance” documentation due to the sensitive nature of the circumstances.
Program officials did not want to include written documentation reflecting reason the
members left the program.

Partial education awards were granted to members at the Non-Violence Project when it was
determined that some of the service hours had been claimed erroneously due to the Program
Director giving misinformation on what constituted a service hour. When corrections were
made to the service hours, the members no longer had achieved the minimum service hour
requirements. As a result, the Commission determined that partial education awards were
appropriate. We believe, however, that this scenario does not constitute an example of
compelling circumstances and therefore does not make the members to be eligible for partial
education awards.




                                            38
We determined the cause for these findings to be a systemic breakdown on the part of the
Commission to properly monitor the fiscal activities of its subgrantees. We observed the
overall focus of the Commission appeared to be establishing relationships with Volunteer
Centers throughout the State rather than assisting its AmeriCorps subgrantees with grant
compliance. We also noted that the Commission tended to not renew the subgrants of
subgrantees that had problems, rather than assist those subgrantees with corrective actions.

This finding is also considered to be an internal control weakness.

Criteria

(1) The AmeriCorps General Provision,1 C.22.b, Source Documentation. The grantee must
    maintain adequate supporting documents for its expenditures (Federal and non-Federal)
    and in-kind contributions made under this grant. Costs must be shown in books or
    records [e.g., a disbursement ledger or journal], and must be supported by a source
    document, such as a receipt, travel voucher, invoice, bill, in-kind voucher, or similar
    document.

    The AmeriCorps General Provision, C.22.c.i., Staff., requires that salaries and wages
    charged directly to this grant or charged to matching funds must be supported by signed
    time and attendance records for each individual employee regardless of position, and by
    documented payrolls approved by a responsible official of the grantee.

    The AmeriCorps General Provision, C.22.c.ii, AmeriCorps Members, requires that
    grantees maintain time and attendance records on all AmeriCorps members in order to
    document their eligibility for in-service and post-service benefits.

(2) AmeriCorps Special Provision, B.11.a.i. and ii, Living Allowances, stipulates that the
    Corporation will only fund up to 85 percent of the minimum living allowance.

(3) The Code of Federal Regulations, 45 C.F.R. § 2543, Grants and Agreements with
    Institutions of Higher Education, Hospitals, and Other Non-Profits, subsection 28, states:

    Where a funding period is specified, a recipient may charge to the grant only allowable
    costs resulting from obligations incurred during the funding period and any pre-award
    costs authorized by the Federal awarding agency.

(4) OMB Circular A-122, Cost Principles for Non-Profit Organizations, (hereafter OMB-
    122) Attachment A, General Principles, 4.a., states:

        A cost is allocable to a particular cost objective, such as a grant, contract,
        project, service, or other activity, in accordance with the relative benefits
        received.


1 All AmeriCorps Grant provision references are to the 2003 edition.

                                                     36
(5) OMB Circular A-122, Attachment A, General Principles, 2.a., states:

       Factors affecting allowability of costs. To be allowable under an award, costs must
       meet the following general criteria:

       a. Be reasonable for the performance of the award and be allocable thereto under
       these principles.

(6) AmeriCorps Provisions, Section A - Definitions, –defines, in part, an AmeriCorps
    member as an individual:

       b. Who is a U.S. citizen, U.S. national or lawful permanent resident alien of the
       United States.

Recommendation

The Corporation should determine the allowability of the questioned costs, recover
unallowable costs that were charged to the grant, including applicable administrative costs,
and ensure that the Commission trains and monitors its subgrantees so that living allowances
are paid in accordance with AmeriCorps Provisions and grant costs are incurred in
compliance with the cost principles and grant terms.

Commission’s Response

The Commission disagrees with the finding on the basis that it has financial monitoring
systems in place that are in accordance to the Corporation standards and have proven to be
successful. The Commission also believes that the costs questioned were isolated incidences
where subgrantees claimed costs not consistent with the grant provisions. The Commission
cited the number of persons employed by Volunteer Florida who are responsible for
administering the grants and the training provided to its subgrantees as further evidence that
adequate procedures for monitoring subgrantees are in place.

The Commission cited examples of the methods by which it has improved its financial
monitoring.

Auditor’s Comment

We identified questioned costs based on the established grant provisions and cost principles
at eight of the nine subgrantees visited. We also identified instances at three of these
locations where there was no audit trail to substantiate the costs claimed by the subgrantees
to Volunteer Florida. These instances required the audit teams to reconstruct what actually
was claimed to the grant. The lack of an audit trail at certain subgrantees and identification
of questioned costs by the audit teams, supports the finding that the method of financial
monitoring was not working. We do not believe the number of people employed at
Volunteer Florida directly relates to the success or failure of financial monitoring of

                                             37
C. Timesheet Variances

We also noted that member service hours had been inaccurately reported through the
Corporation’s Web-Based Reporting System (WBRS) causing members to appear to have
met their minimum service hour requirements. The inaccuracies were identified when
comparing member timesheets with hours reported in WBRS. The questioned education
awards are shown in the table below:

      Entity           Hours in WBRS        Hours per         Variance        Education
                                            Timesheets                         Awards
                                                                              Questioned
Communities      in
Schools of Miami           1,731.50           1,599.50            132.00       $ 4,725
Communities      in
Schools of Miami           1,717.95           1,153.25            564.70          4,725
Dignity Project              900.90             875.20             25.70          2,363
School Board of
Gadsden County             1,700.25           1,655.25             32.00         4,725
      Total                                                                    $16,538

D. Missing Timesheets

Education awards of $18,900 were granted to five members of Communities in Schools of
Florida. Timesheets, however, were missing for the members. As a result, we could not
determine if minimum service hour requirements had been achieved.

Ineligible members may have received living allowances, and partial education awards were
granted to eleven members whose situations did not constitute a compelling circumstance.
Full education awards were granted in error to nine members, mentioned above.

Criteria

(1) AmeriCorps Provisions, Section A - Definitions, –defines, in part, an AmeriCorps
member as an individual:

       a. Who enrolled in an approved national service position.

       b. Who is a U.S. citizen, U.S. national or lawful permanent resident alien of the
       United States.

(2) AmeriCorps Special Provision, B.14.b, Verification, states:

        To verify U.S. citizenship, U.S. national status or, U.S. lawful permanent resident
        alien status, the Grantee must obtain and maintain documentation as required by 45
        C.F.R. 2522.2000 (b) and (c). The Corporation does not require programs to make

                                             39
        and retain copies of the actual documents used to confirm age or citizenship
        eligibility requirements, such as driver license, or birth certificate as long as the
        Grantee has a consistent practice of identifying the documents that were reviewed
        and maintaining a record of the review.

(3) AmeriCorps Special Provision, B.12, Post-Service Education Awards, states:

        In order to receive a full education award, a member must perform the minimum
        hours of service as required by the Corporation and successfully complete the
        program requirements as defined by the Program…. If a member is released from a
        program for compelling personal circumstances, the member is eligible for a pro-
        rated education award based on the number of hours served.

(4) The AmeriCorps General Provision, C.22.c.ii, AmeriCorps Members., requires that
grantees maintain time and attendance records on all AmeriCorps members in order to
document their eligibility for in-service and post-service benefits.

This finding is also considered to be an internal control weakness.

Recommendation

The Corporation should instruct the Commission to work with its subgrantees and more
closely monitor them to ensure that (1) member files contain all required documentation; (2)
written policies and procedures are established requiring member hour verification on an
ongoing basis, and prior to members exiting the program; and (3) education awards are
earned in accordance with grant provisions and those awards that are not be rescinded.


Commission’s Response

The Commission disagreed with the finding on the basis that a process is in place to monitor
program compliance, member eligibility and member service hours. The Commission
indicated that the process meets Corporation standards and is consistent with those utilized
by other state Commissions. Recently, the Commission instituted a policy requiring
programs to submit selected member timesheets for review.

Auditor’s Comment

We acknowledge the fact there is a process in place for monitoring program compliance.
However, the finding states that the current process is inadequate to detect the errors we
noted during our review. We believe that had, the process been adequate, fewer errors would
have occurred and been identified by the audit teams. As such, the finding and
recommendations remain as stated.




                                              40
3: The Commission did not have adequate financial monitoring procedures or other
   procedures in place to ensure that it claimed costs allocable to the grants.

A. Volunteer Florida Foundation

The previous Executive Director and certain Commission staff provided services to the non-
profit entity, Volunteer Florida Foundation. Services provided included administrative work,
accounting, communications and information technology support. The costs for these
services were incurred by the Commission and charged to the Corporation’s Administrative
grants. Volunteer Florida Foundation reported the costs for these services as in-kind services
on its financial statements. Services provided to the Volunteer Florida Foundation by the
Commission began in 2001 and continue to this day. The costs of these services are still
being incurred by the Commission and are ultimately being paid by the Corporation, with the
exception of one third of the Commission Chief Financial Officer’s salary. Effective July
2005, Volunteer Florida Foundation began sharing the costs of this salary. We computed the
overstatement of costs charged to the Administrative grants for the periods within our audit
scope. We noted that, not only were costs charged for these services, but they were also
claimed to the State of Florida through the state grant used for match. We summarized the
Volunteer Florida Foundation costs charged to Administrative grants below:

                     Grant              Federal Share    State of Florida
                                         Questioned       Grant Match
                                                           Questioned
               01SCSFL009                 $ 84,505          $ 22,329
               04CAHFL001                   13,185            79,373
               Total Questioned           $ 97,690          $101,702

The Corporation was aware of the ongoing relationship between the Commission and the
Volunteer Florida Foundation. In fact, the Corporation’s Standard Review, conducted in
2004, suggested that reimbursement for services should be considered. The following is an
excerpt from the Standards Review performed in August 2004:
       Consideration should be given to reviewing the arrangements between the
       Commission and the Foundation and updating the 1999 agreement with more specific
       details on service and support arrangements in such areas as: programs, funding and
       financial support, administration, management, property, facilities, and personal
       services and addressing such matters as responsibilities, accountability, protocols, and
       contributions to and/ or reimbursement for services or support provided or
       exchanged between the two organizations. (emphasis added)

The review also stated the following:

   There is a need to update, clarify and appropriately document the commission’s
   relationship with Volunteer Florida, Inc.

                                              41
Although the Corporation was aware of the Volunteer Florida Foundation, it appears that the
relationship between the two entities remains unclear. We conclude that the costs incurred on
behalf of Volunteer Florida Foundation for services rendered by Commission employees
were not included in the grant award budgets and do not constitute allocable costs to the
grants.

B. FEMA Reimbursement Variance

The Commission entered into disaster relief funding agreements with FEMA to provide
assistance during hurricane relief efforts on a cost reimbursement basis. The efforts were put
forth by Commission employees and reflected on timesheets and travel vouchers. The costs
for these efforts were originally paid for out of Corporation funding and subsequently
reimbursed by the appropriate grants. However, we determined a difference existed in the
Commission’s level of effort versus the amounts reimbursed by FEMA. This variance
occurred because FEMA agreed to only reimburse the Commission for 98 percent of its
efforts in 2004 and 90.5 percent in 2005. The variance represents costs claimed to the
Corporation that are not allocable to the grants charged, as shown in the following table.

                                Grant                          Variance/Questioned Costs
             Special Volunteer – 02SVHFL008                             $1,446
             Administrative – 04CAHFL001                                 5,031
             PDAT – 02PDSFL009                                             152
             PDAT – 05PTHFL001                                              37
             Emergency Preparedness – 04SVSFL001                           238
                               TOTAL                                    $6,904

We also determined that the reimbursement lag time between the costs incurred and the time
of reimbursement from FEMA varied from 2 to 14 months. This indicates that Corporation
funding was being used to supplement FEMA activity prior to reimbursement.

C. AmeriCorps Training Event

Funds totaling $20,833 were shifted from existing budget line items within the 05PTHFL001
grant to fund an AmeriCorps training event held in Orlando during May 2005. The funds
helped pay for the AmeriCorps training event, whose total costs to the Commission exceeded
$143,000, and were shifted from cross stream training events and Program Director
meetings. Actual costs of $40,764 claimed to the PDAT grant, however, exceeded the
amounts in the revised budget as shown in the table below:

        Total PDAT Award Budget                   $155,000
        Cross-Stream Training Budget                 7,500
        Program Director Meeting Budget             13,333
          Training Budget                         $ 20,833
        AmeriCorps event claimed to grant           40,764
        Amount Exceeding Budget                   $ 19,931

                                             42
The costs claimed in excess of the budget represent almost 13 percent of the entire PDAT
grant. The Commission never sought permission from the Corporation to exceed its budget
for this activity. We therefore do not consider these costs to be allocable to the grant.

Criteria

(1) OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments
(hereafter OMB Circular A-87) Attachment A, Part C, Basic Guidelines, ¶ 3.a., states:

        A cost is allocable to a particular cost objective if the goods or services involved are
        chargeable or assignable to such cost objective in accordance with relative benefits
        received.

(2) OMB Circular A-87, Attachment A, Part C, Basic Guidelines, ¶ 3.c., states:

Any cost allocable to a particular Federal award or cost objective under the principles
provided for in this Circular may not be charged to other Federal awards to overcome fund
deficiencies, to avoid restrictions imposed by law or terms of the Federal awards, or for other
reasons.

(3) The PDAT grant award document states:

       The Grantee agrees to administer the funded Program in accordance with
       the approved Grant application and budget(s), supporting documents, and
       other representations made in support of the approved Grant application.

The use of funds as described above diverts available funding from other AmeriCorps
activities. This finding is also considered to be an internal control weakness.

Recommendation

The Corporation should determine the allowability of the questioned costs, recover
unallowable costs that were charged to the grant, and ensure the Commission more closely
tracks costs claimed so that they comply with the cost principles and grant provisions.

Commission’s Response

The Commission disagreed with the finding because the Florida Statute defined the extent to
which the Foundation and the Commission could work together. The Commission also cited
the Unified State Plan and its agreement with the Florida Division of Emergency
Management and the State Emergency Response Team as further evidence that these costs
are allocable to the grant.




                                              43
Auditor’s Comment

We agree that the Florida Statute defines the extent to which the two entities work together.
However, the Statute does not state that the Commission will pay for the Foundation’s efforts
through its Federal grants, and the Commission’s approved budget does not include this
activity. We acknowledge that the Commission has other agreements with the State of
Florida. Both the efforts of the Foundation and the efforts put forth toward other agreements
are from different funding sources. As such, these efforts should not be commingled with the
Corporation grants and should be separately claimed to the appropriate funding sources.

The Commission’s response does not address the shifting of funds for the training event, nor
the difference that exists between the Commission’s level of effort versus the amounts
reimbursed by FEMA. The finding and recommendations remain as stated.

4: Unnecessary and unreasonable costs claimed.

We noted instances of Commission personnel and Commissioners traveling to Washington,
D.C. to meet with Federal lawmakers. The Commission Executive Director stated that the
meetings were conducted to educate the lawmakers about Commission activities. The
Commission maintains a Legislative Committee. Our review of the Commission’s
Legislative Committee Reports, Legislative Committee Notes, form letters sent from
Commissioners to Congressmen, and a letter sent from the Commission Chair on Volunteer
Florida letterhead, indicated that the Executive Director’s trips had a wider scope that
included discussing the Corporation’s fiscal year appropriation. The following is an excerpt
from the letter, sent on Commission letterhead, to a Congressman on June 7, 2005, shortly
after a meeting had taken place in Washington, D.C. between the Commission’s Executive
Director, Commissioners and the Congressman:

       As a Member of the House Appropriations Committee, I encourage you to support
       the President’s budget request for the Corporation for National Community Service.
       This will continue these effective programs that serve citizens while recruiting more
       citizens to engage in volunteer work and civic participation in our communities.


Based on our review of the documents referred to above, it appears the Commission
attempted to influence members of Congress concerning the Corporation’s appropriation bills
pending in Congress through visits to Washington, D.C., through correspondence from
Commissioners, through public appearances with lawmakers at subgrantee locations, and
through the actions of the Commission’s Legislative Committee. This activity constitutes an
impermissible attempt to influence legislation with Federal funds. As a result, such costs
associated with these activities are unallowable and are questioned. In addition, we question
the labor costs incurred by Commission staff for this effort as unallocable.




                                             44
                                                     Federal Share
        Description                 Grant              Amount
Executive Director Travel        04CAHFL001             $2,256
Executive Director Labor         04CAHFL001              2,796
  Executive Director Total                              $5,052

                                                                               State of
                                                                Federal        Florida
                                                                 Share       Grant Match
               Description                         Grant        Amount        Questioned
Director of Emergency Management
 Travel                                      04CAHFL001           $904            $ 94
Director of Emergency Management
 Labor                                       04CAHFL001                            771
Director of Emergency Management
 Labor                                        02SVHFL008             86
Director of Emergency Management
         Total                                                    $990           $865

Funding for these activities detract from the Commission’s ability to use its personnel and
resources for allowable and assigned activities, such as monitoring and assisting its
subgrantees. This finding is also considered to be an internal control weakness.

Criteria

Corporation regulation 45 C.F.R. § 2520.30, What activities are prohibited in AmeriCorps
subtitle C programs?, states:

       While charging time to the AmeriCorps program, or otherwise performing activities
       supported by the AmeriCorps program or the Corporation, staff and members may
       not engage in the following activities:

              (a) attempting to influence legislation.

OMB Circular A-87, Attachment B, Lobbying ¶ 24. states:

       The cost of certain influencing activities associated with obtaining grants, contracts,
       cooperative agreements, or loans is an unallowable cost. Lobbying with respect to
       certain grants, contracts, cooperative agreements, and loans shall be governed by the
       common rule, "New Restrictions on Lobbying" published at 55 FR 6736 (February
       26, 1990), including definitions, and the Office of Management and Budget
       "Government-wide Guidance for New Restrictions on Lobbying" and notices
       published at 54 FR 52306 (December 20, 1989), 55 FR 24540 (June 15, 1990), and
       57 FR 1772 (January 15, 1992), respectively.

                                              45
We also determined these trips to be unnecessary and unreasonable because many of the trips
to Washington D.C. were to meet with elected officials from the State of Florida. We believe
it would have been feasible for these meetings to take place in Florida.

Criteria

(1) OMB Circular A-87, Attachment A, Part C Basic Guidelines ¶ 1.a. and ¶ 2. state:

               1. Factors affecting allowability of costs. To be allowable under Federal
               awards, costs must meet the following general criteria:

               a. Be necessary and reasonable for proper and efficient performance and
               administration of Federal awards.

              2. Reasonable costs. A cost is reasonable if, in its nature and amount, it does
              not exceed that which would be incurred by a prudent person under the
              circumstances prevailing at the time the decision was made to incur the cost.

The use of funds as described above detracts from the Commission using the funds for more
meaningful purposes such as subgrantee monitoring trips. This finding is also considered to
be an internal control weakness.

Recommendation

We recommend that the Corporation: (1) instruct the Commission to cease its practice of
engaging in efforts to influence lawmakers concerning appropriations legislation; and (2);
discontinue funding the Legislative Committee activities or provide substantial evidence as
to its need and value in assisting the Commission in carrying out its responsibilities under
Corporation grants.

The Corporation should determine the allowability of the costs questioned.

Commission’s Response

The Commission disagreed with the finding and cited the fact that staff had participated in
training related to the topic. The Commission mentioned that the discussions with
Congressmen had been carefully scripted to discuss how the funding had been utilized. The
Commission also stated that it would be unreasonable and wasteful to visit with the elected
officials in their home State of Florida and that the same results can be achieved in one two-
day visit to Washington, D.C.




                                             46
Auditor’s Comment

The response is consistent with our discussions with Commission management during
fieldwork. As a result, we have reached the same conclusion as we did during fieldwork.
We note that these types of costs claimed to the Corporation grants were not included in the
grant award. We would have accepted the trips to Washington, D.C. if this travel had
consisted of a one, two-day trip. However, there were seven such trips in 2005 and the
benefits of these travels to the AmeriCorps program remain unsubstantiated. The
Commission has also engaged in extensive in-state travel that includes the constituencies of
many of the elected officials it wishes to contact. In-state offices of lawmakers could be
visited as part of this travel, thereby avoiding the time and expense of traveling to
Washington D.C. The finding and recommendations remain as stated.

5: The Commission did not have adequate procedures in place to ensure that travel
   costs charged to the grants were allowable, allocable, and reasonable.

We determined certain travel costs were questionable for various reasons. The tables on the
next page represent specific travel expenditures and the categories of questioned costs, of
which some are questioned for more than one reason.




                                            47
A. Executive Director’s travel claimed to the 04CAHFL001 Administrative grant.
                                                     Lobbying
                                                    Amount (see
                                                  finding number   Non-Allocable   Travel Not in
Travel Voucher #/Date         Description             4 above)       Amount        Award Budget
15763 – March 2004          D.C. to Educate            $1,343         $1,343        $   -
                              Lawmakers
16270 – April 2004      Naples for Presidential         -                555             -
                                  Visit
16438 – May 2004        Tampa for Governor’s            -               423              -
                        Hurricane Conference
16875 – July 2004        Key West for Florida           -               496              -
                             Association of
                          Voluntary Agencies
                        for Caribbean Action
                         (FAVACA)Board of
                            Directors Retreat
16881 – July 2004           Airfare to Reno,            -               261              -
                          Nevada for Personal
                                Vacation
17211 – October 2004     Jacksonville to attend         -               215              -
                            FAVACA Board
                                Meeting
17798 – December 2004   Cab to Congressman’s            18               18              -
                             Office in D.C.
18061 – January 2005    Presentation to CNCS
                                in D.C.                 -              800               800
17962 – January 2005    Alabama Presentation            -               16                16
18304 – February 2005   CNCS meeting in D.C.            -               -                637
18071 – March 2005      Hands On Conference             -               -              1,165
                          in Portland, Oregon
18270 – March 2005          D.C. to Educate            895             895              895
                              Lawmakers
18499 – April 2005          D.C. for Aguirre            -                -              643
                              meeting and
                          Congressional visit
18927 – May 2005          D.C. for Homeland             -              770              770
                           Security Briefing
18830 – May 2005        Tampa for Governor’s            -              867               -
                        Hurricane Conference
19009 – May 2005        Atlanta to meet Points          -              310              310
                        of Light and Hands On
18778 – May 2005             Presentation in            -                32              32
                                Arizona
16 – June 2005             Miami for Disaster           -              730               -
                           Training (ESF-15)
18977 – August 2005      Registration for D.C.          -                -              400
                             Points of Light
                              Conference
142 – August 2005          D.C. for Points of           -                -             1,346
                           Light Conference
       TOTAL                                        $2,256           $7,731          $7,014


                                                  48
Travel not included in the award budget comprised trips taken outside the State of Florida.
The original award budget specified that out-of-state travel be considered allocable cost.
However, an amendment to the award budget to reduce the administrative grant amount
ended funding for trips outside of Florida.

The Executive Director’s travel budget for calendar year 2005 was $12,000. As of
September 2005, costs claimed were $15,536. Our review of travel costs was limited to costs
claimed as of September 2005. Spreadsheets with travel transactions through November
2005 indicated Executive Director’s travel costs to be $21,963, or $9,963 (83 percent) higher
than budgeted in the Administrative cost award budget.

The Executive Director’s airfare was approved by her Administrative Assistant and travel
vouchers were approved by the Chief of Staff, who often accompanied the Executive
Director on these trips. This lack of segregation of duties indicates there may have been
little, if any, oversight as to the allowability, reasonableness or allocability of costs incurred
for the trips.

B. Chief of Staff travel claimed to the 04CAHFL001 Administrative grant.
Travel Voucher                                         Non-Allocable          Out of State Travel    Unnecessary or
    #/Date                Description                    Amount              Not in Award Budget      Reasonable
 16393 – May         Governor’s Hurricane                  $550                     $ -                  $ -
     2004            Conference in Tampa
 16861 – July           Governor’s Press                      -                       -                   251
     2004           Conference Attended by
                       Four Commission
                           Employees
 18072 – March      Hands On Conference in                    -                      1,042                 -
     2005               Portland, Oregon
  18666 – May        Governor’s Hurricane              Credited during                -                    -
     2005            Conference in Tampa                 fieldwork
  19005 – May       Atlanta to meet Points of                 51                          51               -
     2005             Light and Hands On
    TOTAL                                                    $601                  $1,093                $251

C. Director of Emergency Services travel claimed to the 04CAHFL001 Administrative grant.
    Travel                               Lobbying                                    Out of State
   Voucher                             Amount (finding            Non-Allocable     Travel Not in      Unnecessary
    #/Date           Description         # 4 above)                 Amount          Award Budget      or Reasonable
16883 – June        Presentation in        $ -                       $ -              $ 24                $ -
2004                   San Juan
17040 – July       Governor’s Press              -                       -                     -          206
2004                 Conference
                   Attended by four
                     Commission
                      Employees
18104 – January   Presentation in DC             -                       -                     804          -
2005                   to CNCS
18269 – March      D.C. to Educate               904                   904                     904          -
2005                 Lawmakers
   TOTAL                                        $904                  $904                $1,732          $206

                                                        49
D. Director of Emergency Services travel claimed to the 04CAHFL001 Administrative grant
   match.

                                           Lobbying
   Travel                                 Amount (see
  Voucher                               finding number         Non-Allocable        Unnecessary or
   #/Date           Description             4 above)             Amount              Reasonable
   17807 –             Check                   $94                 $94                  $ 94
November 2004    presentation with
                       several
                    Commission
                   personnel and
                     lawmaker
   17968 –           Boy Scout                 -                     -                   539
December 2004       Governor’s
                  Ceremony also
                  attended by ED
   TOTAL                                      $94                   $94                 $633

E. Other Travelers claimed to the 04CAHFL001 Administrative grant.

                                                      Lobbying                            Out of
                                                       Amount                             State         Not
  Travel                                             (see finding           Non-        Travel Not   Necessary
 Voucher                                              number 4            Allocable     in Award         or
  #/Date        Traveler              Description       above)            Amount         Budget      Reasonable
 19236 –     Communication’s          Governor’s         $-                 $ 862        $ -           $ -
 May 2005       Director               Hurricane
                                      Conference
                Commission            Governor’s           -                 862               -         -
                  Staff                Hurricane
                                      Conference
  17796 –       Commission’s             Check            307                307               -        307
 November        AmeriCorps           presentation
   2004           Director            with several
                                      Commission
                                     personnel and
                                       lawmaker
 18073 –        Commission             Hands On            -                  -            1,301         -
March 2005        Staff              Conference in
                                        Portland,
                                         Oregon
 TOTAL                                                    $307             $2,031         $1,301       $307

The use of funds as described above detracts from the Commission’s spending of funds for
more purposeful uses such as subgrantee monitoring. This finding is also considered to be an
internal control weakness.




                                                     50
Criteria
(1) OMB Circular A-87, Attachment A, Part C, Basic Guidelines, ¶ 3.a. states:

      A cost is allocable to a particular cost objective if the goods or services involved are
      chargeable or assignable to such cost objective in accordance with relative benefits
      received.
(2) OMB Circular A-87, Attachment A, Part C, Basic Guidelines, ¶ 1.a. and 2. state:

       1. Factors affecting allowability of costs. To be allowable under Federal awards,
       costs must meet the following general criteria:

       a. Be necessary and reasonable for proper and efficient performance and
       administration of Federal awards.

        2. Reasonable costs. A cost is reasonable if, in its nature and amount, it does not
       exceed that which would be incurred by a prudent person under the circumstances
       prevailing at the time the decision was made to incur the cost.

The costs claimed for duplicative travelers from the Commission attending the same events
do not represent reasonable costs that would be incurred by a prudent person. Therefore, we
have questioned these costs as unreasonable.

The Administrative grant award document states:

       The Grantee agrees to administer the funded Program in accordance with
       the approved Grant application and budget(s), supporting documents, and
       other representations made in support of the approved Grant application.

Recommendation

The Corporation should instruct the Commission to: (1) give closer scrutiny to its budget to
ensure travel costs incurred are allowable and allocable to the grants; (2) give closer scrutiny
to travel costs claimed to ensure they are in accordance to the cost principles; and (3)
implement controls to achieve adequate oversight of travel. This oversight should include
proper segregation of duties in reviewing and approving travel vouchers and in the purchase
of airline tickets.

We also recommend the Corporation determine the allowability of the costs questioned.




                                              51
Commission’s Response

The Commission disagreed with the finding on the bases that it has a strong understanding of
the OMB Circulars and the trips were within the scope of the Unified State Plan. However,
the Commission stated that the process for approving the Executive Director travel has been
changed.

Auditor’s Comment

The Commission revised the Executive Director’s travel authorization and reimbursement
process, however, we do not believe the response addresses the focal point of the finding,
which is the unsubstantiated benefit that such travel accrues to the AmeriCorps program.
The finding and recommendations remain as stated.

6: The Commission claimed meals that exceeded established per-diem rates.

We found instances where the Commission exceeded the established per-diem rates used by
Tallahassee Community College. The per diem ceilings were circumvented by providing
meals as direct-billed hotel transactions. Most of the transactions were contractual
arrangements between the Commission and the hotel for various Commission events. Two
of the events were dinners provided at the homes of the former and current Executive
Directors. The amounts of the meals that exceeded the established per-diem rates are
summarized below.




                                            52
                                                   Questioned    Questioned
                                                    Federal        State of
   Grant           Location             Event        Share      Florida Match
02PDSFL009    Holiday Inn-          Service         $1,660         $ -
              Orlando, FL           Leadership
02PDSFL009    Canterbury Retreat    Program          1,488              -
              – Ovieda, FL          Director
                                    Meeting
02PDSFL009    Holiday Inn –         Commissioner     3,874              -
              Tallahassee, FL       Meeting
02PDSFL009    Holiday Inn-          Service          1,430              -
              Orlando, FL           Leadership
    Grant
   Subtotal                                         $8,452        $    -
05PTHFL001    Rosen Center –        Program
              Orlando, FL           Director          493               -
                                    Meeting
    Grant
   Subtotal                                         $ 493         $     -
01SCSFL009    Holiday Coach –       Commission         -              2,063
              Orlando, FL           Meeting
01SCSFL009    Sheraton Suites –     Commission         -              1,001
              Ft. Lauderdale, FL    Meeting
01SCSFL009    Tower Club – Ft.      Commission         -               793
              Lauderdale, FL        Meeting
01SCSFL009    Radisson – Ft.        Commission         -              1,616
              Lauderdale, FL        Meeting
01SCSFL009    Home of Former        Commissioner       -                91
              Executive Director    Dinner
01SCSFL009    Embassy Suites –      Commission         -              2,334
              Orlando, FL           Meeting
   Grant
  Subtotal                                           $ -          $ 7,898
04CAHFL001    Buena Vista Suites    Commission
              – Orlando, FL         Meeting            -               775
04CAHFL001    Ritz Carlton –        Commissioner
              Sarasota, FL          Meeting            -              4,560
04CAHFL001    Tallahassee Civic     Commissioner
              Center – Home of      Dinner
              Executive Director                       -              1,983
   Grant
  Subtotal                                           $ -         $ 7,318
  TOTAL                                              $8,945      $15,216



                                   53
The use of funds as described above detracts from the Commission’s spending of funds for
more purposeful uses such as subgrantee monitoring. This finding is also considered to be an
internal control weakness.

Criteria

OMB Circular A-87, Attachment B, Selected Items of Cost, ¶ 43.b. states:

        Lodging and subsistence. Costs incurred by employees and officers for travel,
       including costs of lodging, other subsistence, and incidental expenses, shall be
       considered reasonable and allowable only to the extent such costs do not exceed
       charges normally allowed by the governmental unit in its regular operations as a
       result of the governmental unit's policy.

The Tallahassee Community College Policy Manual 6Hx27:09-04 specifies that per-diem
and subsistence allowances will be paid at $21 per day. The established ceilings for each
meal are as follows:

        •     Breakfast - $3
        •     Lunch - $6
        •     Dinner - $12

We used these allowances for our computation of questioned costs.


Recommendation

The Corporation should instruct the Commission to cease its practice of negotiating fees for
meals that exceed per-diem allowances and should also determine the allowability of the
costs questioned.


Commission’s Response

The Commission indicated that it had discontinued its practice of providing meals in excess
of the allowable per-diem and that costs are now held to the limits established by the Florida
Legislature.

Auditor’s Comment

We agree with the Commission’s discontinuance of the practice of negotiating fees for meals
in excess of the per diem allowances. We continue to recommend that the Corporation
determine the allowability of the excess per diem charged to Federal Share and match.


                                             54
7: The Commission did not have procedures in place to ensure that other direct costs
   charged to the grants were allowable, allocable, and reasonable.

      The following costs selected for testing are questioned under the criteria noted:

                                                                      Corporation
             _____Description                    Grant                 Amount       Criteria
   Balloon Decorations                         01SCSFL009              $ 518          (1)
         Subtotal Administrative Grant                                 $ 518

   Consulting Fees Exceeding Limit             04CAHFL001              $1,020         (2)
   Consulting Fees not in Award Budget         04CAHFL001               6,452         (3)
   Membership Fees in Civic Organization       04CAHFL001                  25         (4)
   Ribbons & Confetti for AmeriCorps event     04CAHFL001                 255         (1)
   Prepaid Business Cards Never Ordered        04CAHFL001                 173         (5)

           Subtotal Administrative Grant                               $7,925

   Promotional Advertising                     03CDHFL001              $ 300          (6)

        Subtotal Disability Grant                                      $ 300

   AmeriCorps Training Event Trinkets           05PTHFL001             $ 492          (1)
   Karaoke DJ Services                          05PTHFL001                750         (1)
     Subtotal PDAT Grant                                               $1,242
                    Total                                              $9,985
This finding is also considered to be an internal control weakness.

Criteria

(1) OMB Circular A-87, Attachment B, Selected Items of Cost, ¶ 14. states:

       “Costs of entertainment, including amusement, diversion, and social activities and
       any costs directly associated with such costs (such as tickets to shows or sports
       events, meals, lodging, rentals, transportation, and gratuities) are unallowable.”

(2) AmeriCorps State Administrative Award General Provision, 12.e, Consultant Services,
    states:

       Payments to individuals for consultant services under this Grant will not exceed $443
       per day (exclusive of any indirect expenses, travel, supplies and so on).

(3) The Administrative grant award document states:

        The Grantee agrees to administer the funded Program in accordance with the
        approved Grant application and budget(s), supporting documents, and other
        representations made in support of the approved Grant application.

                                              55
(4) OMB Circular A-87, Attachment B, Selected Items of Cost, ¶ 28.d. states:

       Costs of membership in civic and community, social organizations are allowable as a
       direct cost with the approval of the Federal awarding agency.

Approval to incur this cost was not obtained from the Corporation.

(5) OMB Circular A-87, Attachment A, Part C, Basic Guidelines, ¶ 1.a. and ¶ 2. state:

       1. Factors affecting allowability of costs. To be allowable under Federal awards,
       costs must meet the following general criteria:
       a. Be necessary and reasonable for proper and efficient performance and
       administration of Federal awards.
       . . . .

       2. Reasonable costs. A cost is reasonable if, in its nature and amount, it does not
       exceed that which would be incurred by a prudent person under the circumstances
       prevailing at the time the decision was made to incur the cost.

(6) OMB Circular A-87, Attachment B, Selected Items of Cost, ¶ 1.f.(4) states:

       Unallowable advertising and public relations costs include the following: . . . Costs of
       advertising and public relations designed solely to promote the governmental unit.

Recommendation

The Corporation should instruct the Commission to familiarize itself with the grant
provisions and cost principles and should determine the allowability of the questioned costs.

Commission’s Response

The Commission disagreed with the finding, stating that all costs questioned were allowable,
allocable and reasonable.

Auditor’s Comment

The response did not provide documentation to support the allowability of the questioned
costs. The finding and recommendations remain as stated.




                                              56
     8: The Commission did not monitor subgrantees for compliance with grant provisions.

     We found instances in which subgrantee member documentation was lacking, not submitted
     in a timely manner, or inaccurate.

     A. Eligibility Documentation

                                                                                    Lack of                            Lacking
                                     Total           Member       Background         Signed         Lacking              High           Member
                                    Members            Files        Checks          Member          Proof of            School           File
           Subgrantee               Enrolled         Reviewed       Missing         Contract       Citizenship         Diploma          Missing

Florida Reads – Leon                     17            12              -                -                  -               -                -
Florida Reads – Broward                  30             8              1                1                  -               -                -
Florida Reads – Dade Ed. Fund2           44            11              2                2                  1               -                -
Florida Reads – Duval                    38            13              -                -                  -               -                -
Florida Reads - Alachua                  20             7              -                -                  -               -                -
Florida Reads - Citrus                   15             7              -                -                  -               -                -
Florida Reads – St. Lucie                20            11              -                -                  -               -                -
Florida Reads – St. Johns                16             5              -                -                  -               -                -
Florida Reads – Palm Beach               12             3              -                -                  -               -                -
Florida Reads – Lake                     10             2              -                -                  -               -                -
Florida Reads (State Office)                                           -                -                  -               -                -
Dignity Auto Project                     69             35             -                7                  -               1                -
Florida Agricultural & Mechanical
University                               60             30             9                -                  -               -                -
Gadsen County School Board               91             46             -                1                  -               -                -
Community Integration Program            20             10             -                -                  1               -                1
Listen to Children                       27             14             -                -                  -               -                -
Department of Elder Affairs              32             16             -                -                  -               -                -
Miami Reads                              47             24             -                -                  -               -                -


     B. Late Forms
                                                                                                                 Late
                                           Total         Member               Late                             Financial           Late
                                          Members          Files           Enrollment          Late Exit        Status           Progress
                Subgrantee                Enrolled       Reviewed            Forms              Forms           Reports          Reports

     Florida Reads – Leon                     17             12                7                  4                -                -
     Florida Reads – Broward                  30              8                6                  3                -                -
     Florida Reads – Dade Education
     Fund                                     44             11                9                  1               -                 -
     Florida Reads – Duval                    38             13                8                  5               -                 -
     Florida Reads - Alachua                  20              7                6                  3               -                 -
     Florida Reads - Citrus                   15              7                6                  1               -                 -
     Florida Reads – St. Lucie                20             11                7                  4               -                 -
     Florida Reads – St. Johns                16              5                5                  1               -                 -
     Florida Reads – Palm Beach               12              3                3                  -               -                 -
     Florida Reads – Lake                     10              2                1                  -               -                 -
     Florida Reads (State Office)              -              -                -                  -               1                 4
     Dignity Auto Project                     69             35                4                  9               2                 1
     Florida Agricultural & Mechanical
     University                               60             30                 -                 30              -                 -
     Gadsden County School Board              91             46                12                  -              -                 -
     Community Integration Program            20             10                 -                  -              1                 1
     Listen to Children                       27             14                 5                  -              2                 2
     Department of Elder Affairs              32             16                12                  4              3                 5
     Miami Reads                              47             24                19                  3              2                 4



     2 - Three member background checks were performed 1-2 months after the members had enrolled.

                                                                  57
C. Lacking Other Documents
                                       Total     Member                    No End-of-
                                      Members      Files    No Mid-Term      Term        No Orientation
             Subgrantee               Enrolled   Reviewed    Evaluations   Evaluations   Documentation

Florida Reads – Leon                     17         12           6              8              2
Florida Reads – Broward                  30          8           2             2               6
Florida Reads – Dade Education Fund      44         11           11            11              4
Florida Reads – Duval                    38         13           5             5               4
Florida Reads – Alachua                  20          7            -             -              -
Florida Reads – Citrus                   15          7            -             -              -
Florida Reads – St. Lucie                20         11            -             -              -
Florida Reads – St. Johns                16          5            -             -              -
Florida Reads – Palm Beach               12          3            -             -              -
Florida Reads – Lake                     10          2            -             -              -
Florida Reads (State Office)              -          -            -             -              -
Dignity Auto Project                     69         35            -            69              -
Florida Agricultural & Mechanical
 University                              60         30          60              -              -
Gadsden County School Board              91         46           -              -              -
Community Integration Program            20         10           -              -              -
Listen to Children                       27         14           -              -              -
Department of Elder Affairs              32         16          16             16              -
Miami Reads                              47         24          18             18              -


D. Trust Fund Database Exceptions

We found errors when comparing member hours in the Web Based Reporting System
(WBRS) to member timesheets at all locations. We also found there were six members at
Florida Reads – Broward and eight members at Florida Reads – Dade Education Fund that
had never been entered into WBRS.

We note that although the Commission regularly performed monitoring and follow-up of its
subgrantees, it lacked detailed procedures or monitoring tools to verify compliance with
grant provisions.

By not submitting the required documents within established time frames, the Corporation
and Commission cannot properly review, track, and monitor the subgrantees’ activities and
objectives of the AmeriCorps program. In addition, without current member and financial
information, the Corporation may be unable to make timely and effective management
decisions.

This finding is also considered to be an internal control weakness.

Criteria

AmeriCorps Special Provision B.16.a., Financial Status and Progress Reports, establishes
due dates for semi-annual reporting and states that grantees must submit progress reports by
these dates. It further establishes that grantees establish their own submission deadlines for
their respective subgrantees. Subsection B.16.b, AmeriCorps Member Related Forms,
specifies the forms that grantees must submit to the Corporation to track AmeriCorps
member status and hours.

                                                  58
The AmeriCorps Special Provision B.6.h., Eligibility, Recruitment, and Selection states:

       Programs with members or employees who have substantial direct contact
       with children (as defined by state law) or who perform service in the homes of
       children or individuals considered vulnerable by the program, shall, to the
       extent permitted by state and local law, conduct criminal record checks on these
       members or employees as part of the screening process. This documentation
       must be maintained consistent with state law.

The 2005 Florida Statute 1012.32(a) (2) states:

       Instructional and noninstructional personnel who are hired or contracted to
       fill positions requiring direct contact with students in any district school
       system or university lab school shall, upon employment or engagement to
       provide services, undergo background screening as required under 1012.465
       or 1012.56 whichever is applicable.

The AmeriCorps Provisions, Definitions, A.14.d. requires members to have a high school
diploma or an equivalency certificate.

AmeriCorps Provision, Definitions, A.14.a and b. defines, in part, an AmeriCorps member as
an individual:

       a. Who enrolled in an approved national service position.

       b. Who is a U.S. citizen, U.S. national or lawful permanent resident alien of the
       United States.

AmeriCorps Special Provision, B.14.b., B Verification., states:

        To verify U.S. citizenship, U.S. national status or, U.S. lawful permanent resident
        alien status, the Grantee must obtain and maintain documentation as required by 45
        C.F.R. 2522.2000 (b) and (c). The Corporation does not require programs to make
        and retain copies of the actual documents used to confirm age or citizenship
        eligibility requirements, such as driver license, or birth certificate as long as the
        Grantee has a consistent practice of identifying the documents that were reviewed
        and maintaining a record of the review.




                                             59
AmeriCorps Special Provision, B.7.b. Member Contracts. states:

      The Grantee must require that members sign contracts that, at a minimum.
AmeriCorps Special Provision, B.16.b. AmeriCorps Member-Related Forms, states:

          i.     Enrollment Forms. Enrollment forms must be submitted no later than 30
                 days after a member is enrolled.
          iii.   Exit/End-of-Term-of-Service Forms.          Member Exit/End-of-Term-of-
                 Service Forms must be submitted no later than 30 days after a member
                 exits the program or finishes his/her term of service.

AmeriCorps Special Provision, B.7.g., Performance Reviews, states:

       The Grantee must conduct and keep a record of at least a midterm and end-of-term
       written evaluation of each member’s performance.

AmeriCorps Special Provision, B.7.c., Training, states:

       The Grantee must conduct an orientation for members and comply with any pre-
       service orientation or training required by the Corporation.


Recommendation

The Corporation should instruct the Commission to prepare a comprehensive corrective
action plan to addresses the above compliance requirements for all subgrantees, including
those not tested.

Commission’s Response

The Commission disagreed with the finding, stating that it had a process in place for
monitoring subgrantees so all subgrantees meet grant requirements and effectively manage
their programs.

Auditor’s Comment

We believe that, had monitoring of the subgrantees for the compliance items identified above
taken place, the number of exceptions would not have been as pervasive. In its response, the
Commission did not address the quality of the monitoring that takes place. Due to the
significant number of financial and compliance findings, the Commission must develop a
comprehensive corrective action plan to addresses these findings, and improve the quality of
its monitoring visits. The finding and recommendation remains as stated.




                                             60
9: Executive Director annual and sick leave.

We found that the Executive Director (ED) had not recorded vacation or sick leave since her
employment began on November 10, 2003. We noted this when comparing the Tallahassee
Community College (TCC) Leave Register Reports with the ED’s monthly calendar, which
contained vacation notations as well as travel vouchers indicating that the ED was on
vacation. Also included on the ED’s monthly calendar were notations concerning the ED
being absent due to illness.

Our discussions with Commission management indicated that the ED sought to use a
compensatory time policy and take leave in the form of overtime hours she had worked
during the normal course of employment.

The overstatement of the ED leave banks places the Commission with a larger liability
because payment of these hours would be forthcoming upon termination. The Corporation’s
grants would bear 100 percent of the costs for these accrued hours in the event the ED
departs the Commission. The accrued hours as of October 2005 were 470 hours of vacation
and 278 hours sick leave. We also note that the Executive Director’s contract establishes a
base rate of 176 hours of vacation and 104 hours of sick leave at the inception of
employment, in addition to the accrual of additional vacation hours at the completion of each
payroll cycle.

The process in place at TCC requires employees to complete either an Exempt or non-
Exempt Employee Leave Request Form. As referenced on the form, this requirement
includes Select Exempt employees, which is the designated labor category of the ED. These
forms were completed by other personnel based on our review of the Leave Register Reports,
our observation of forms completed in the office, and our discussions with various personnel.

TCC policy number 6Hx27:07-06 states:

       Inasmuch as the service of an executive/administrative employee is performance and
       contract based, an executive/administrative employee is expected to work whatever
       hours may be required by the position and no overtime or compensatory leave may be
       earned or paid.

Recommendation

The Corporation should instruct the Commission to reduce the ED’s annual and sick leave
hours to the actual amounts accrued.

Commission’s Response

The Commission disagreed with the finding on the basis that the practice identified during
the audit was one that utilized a flexible work schedule rather than compensatory time. The
Commission stated that this type of work schedule was permissible under Florida Statute and


                                             61
was agreed to by the Tallahassee Community College administration.

Auditor’s Comment

The use of a flexible work schedule was mentioned during fieldwork and communicated to
the audit team as the policy in effect for the Commission. The Commission cited the policy
it followed as being that utilized by the Florida Department of Management Services (DMS).
Commission personnel are employees of the Tallahassee Community College. As a result,
we believe the TCC policy, not the DMS policy cited in the finding, is applicable to
Commission personnel.

The Commission used monthly certifications for most of the period under review. The
certifications documented that the employee had worked 100 percent of their effort toward
the AmeriCorps grant but did not provide the number of hours worked. Therefore, overtime
hours worked for use in a flexible work schedule would not have been verifiable even had the
DMS policy been in effect. The finding and recommendation remains as stated.



Internal Control Finding

10: Director of Emergency Management Services timekeeping.

The Commission’s Director of Emergency Management Services completes timesheets
which segregate his efforts between state funded grants and efforts that pertain to
Corporation grants. However, efforts for the Corporation encompasses includes two grants,
the Emergency Preparedness grant (04SVSFL01) and the Operation Step Up grant
(02SVHFL008). Timekeeping for these grants is combined as one funding source as
opposed to designating a level of effort specific to each grant.

The TCC payroll system allocates labor activity based on predetermined percentages entered
into the payroll system. This approach does not affect other members of the Commission
because their effort is 100 percent to the Corporation or 100 percent to Corporation grants
and grant match. Costs claimed to the two Corporation grants for the Director of Emergency
Management Services, however, may not reflect actual levels of effort to either grant.

Criteria
OMB Circular A-87, Attachment B, Selected Items of Cost, ¶ 8.h. states:

       Support of salaries and wages. These standards regarding time distribution are in
       addition to the standards for payroll documentation. Where employees work on
       multiple activities or cost objectives, a distribution of their salaries or wages will be
       supported by personnel activity reports or equivalent documentation which meets the
       standards in subsection (5) unless a statistical sampling system (see subsection (6)) or



                                              62
       other substitute system has been approved by the cognizant Federal agency. Such
       documentary support will be required where employees work on:

       . . . .

       (5) Personnel activity reports or equivalent documentation must meet the following
       standards :(a) They must reflect an after-the-fact distribution of the actual activity of
       each employee….


Recommendation No. 10

The Corporation should require that the Commission claim costs to each grant based on
documented levels of effort, as reflected on employee timesheets.

Commission’s Response

The Commission disagreed with the finding, stating that the timekeeping was in accordance
with OMB Circular A-87. The Commission also commented that this issue was not
presented at the exit conference and therefore the Commission stated that it regrets its
inability to respond.

Auditor’s Comment

We believe the response does not affect the finding or the recommendation as the
Commission did not specifically address the issue that the employee’s time is combined for
the two Corporation grants.

The finding was not presented at the exit conference due to the large number of findings that
are included in this report and had to be dealt with at the conference. However, this finding
was discussed on numerous occasions with the Commission during the audit, and was also
presented in the draft audit report in sufficient detail for the Commission to prepare its
response. The finding and recommendation remains as stated.




                                               63
Internal Controls Over Financial Reporting

In planning and performing our audit of awards costs as presented in Exhibits A through F
for the period January 1, 2002 to September 30, 2005, we considered Volunteer Florida's
internal controls over financial reporting in order to determine our auditing procedures for
the purpose of expressing our opinion on the financial schedules and not to provide an
opinion on the internal controls over financial reporting. However, we noted certain matters
involving the internal control over financial reporting that we consider to be reportable
conditions. Reportable conditions involve matters coming to our attention relating to
significant  deficiencies in the design or operation of the internal control over financial
reporting that, in our judgment, could adversely affect the Volunteer Florida's ability to
record, process, summarize, and report financial data consistent with the assertions of
management in the financial statements. Compliance findiigs numbered 1 through 8 and
number 10, as set forth in the Compliance and Internal Control Findings Sections of this
report, are also considered as internal control reportable conditions.

A material weakness is a reportable condition in which the design or operation of one or
more of the internal control components does not reduce, to a relatively low level, the risk
that misstatements caused by error or fraud in amounts that would be material in relation to
the financial statements being audited may occur and not be detected within a timely period
by employees in the normal course of performing their assigned functions. Our consideration
of the internal control over financial reporting would not necessarily disclose all matters in
the internal controls that might be reportable conditions and, accordingly, would not
necessarily disclose all reportable conditions that are considered to be material weaknesses.
However, we believe all of the reportable conditions identified above represent material
weaknesses.




Conrad and Associates, L.L.P.
Irvine, California
March 3,2006
                 Appendix A



Response to the Draft Report by Volunteer Florida




                       65
Em-
      Dear Mr. Shadowens:

      Volunteer Florida respectfully submits the attached fmal response to the draft report on the Audit
      of Corporatzonfor National and Community Service Grants Awarded to Volunteer Florida,
      submitted by the Office of Inspector General to the Corporation for National and Community
      Service, and prepared by the contracted agency, Mayer Hofhan McCann P.C., Conrad
      Government Services Division.

      This audit response has been prepared with the full cooperation of the entire Volunteer Florida
      management team, with valuable input fiom volunteer commissioners who serve as the
      Commission's Officers and on the Commission's Finance and Audit Committee.

      We are pleased to be able to provide these responses, which illustrate our confidence in
      Volunteer Florida's ability to successfully administer AmeriCorps and other grant fundimg
      provided by the Corporation for National and Community Service; to fulfill the intent of the
      original legislation which established State Commissions; and more important, to implement
      programs that meet the established goals of the Corporation's Strategic Plan.

      We will await your response, and further notification regarding the timeline and process for the
      Resolution phase, as we work collectively to implement improvements based on the audit's
      recommendations.

      Regards,




      Wendy spencer
      Chief Executive Officer

      cc:   Carol Bates, Inspector General, CNCS
            Stuart Axenfeld, Audit Manager, CNCS Office of Inspector General
            Deirdre Finn, Deputy Chief of Staff, Executive Office of the Governor
            Derry Harper, Chief Inspector General, Executive Office of the Governor
            David Eisner, Chief Executive Officer, CNCS
            Dave Ramsay, Commission Chairman
            Lee Cockerell, Commission Vice Chairman
            Ann Henderson, Commission Treasurer
            Carl Weinrich, Commission Immediate Past Chairman
            General Bob Milligan, Commissioner
            Kim Mills, Director of Auditing, Executive Office of the Governor
            Peg Rosenbeny, Director of Grants Management, CNCS
            Douglas S. Gerry, Office of Grants Management, CNCS
            Jolene Harrell, Program Officer, CNC?
                                                <t34%
                                                        .                      -
      401 South Monme Street. Tallahassee, Florida 32301 (850)921-St72 voke/tty (8501 921-5146 fax
                      Volunteer Florida: Response to the draft report on the
   Audii of Corporationfor National und Conununity Service G r a m Awarded to Volunteer Florida

1: The Commission did not have adeauate financial monitoring or other procedures
in place to ensure that its subgrantees claimed cosQ in accordance with OMB's
principles or want provisions.

Commission's Response

Volunteer Florida disagrees with this finding. Volunteer Florida has fmancial monitoring
systems in place that are in accordance with Corporation for National and Community
Service standards. These systems have proven successful in revealing subgrantees that
need additional training and assistance. Volunteer Florida has consistently met and
exceeded the requirements and standards set forth by the Corporation for National and
Community Service.

Volunteer Florida already has taken steps to require documentation to support the largest
questioned costs in this audit. The lack of documentation for AmeriCorps staff salaries
and wages charged directly to the grant were primarily for staff that spent 100percent of
their time as ArneriCorps program directors.

In order to improve its fiscal monitoring and program oversight, Volunteer Florida has
implemented a process that requires all programs to submit the first three months of
reimbursements with complete source documentation including: 1) staff time-and-effort
reports; 2) Member time records; and 3) an expense report from their accounting system
reconciling with reports filed by the programs in WBRS (Web-based Reporting System).

Volunteer Florida policy also now requires a site visit to all new subgrantees by a
member of its budget office who has expertise in financial source documentation and
applicable requirements. This will allow program consultants to spend more time
reviewing Member files and eligibility documentation on site. These corrective actions
were developed in consultation with the Corporation for National and Community
Service.

Response to the statement in compliance finding 1: h numerous instances, the
Commission claimed costs that did not comply with OMB's cost principles"

Volunteer Florida disagrees with this statement. Volunteer Florida has a clear
understanding of OMB cost principles and provides oversight of subgrantees. Volunteer
Florida recognizes there have been isolated incidences where subgrantees claimed costs
that were not consistent with grant provisions; however, this does not demonstrate an
inadequate monitoring system.

Volunteer Florida has paid for subgrantee fiscal staff, from all but one subgrantee with
findings, to attend Walker & Company's Financial Management Workshops. Volunteer
~loridaalso has qualified staff providing training and on-site technical assistance.
P r o m s are provided with a comprehensive Financial Management Handbook. The one
grantee that did not have a fiscal officer attend a Financial ~ G a ~ e m eWorkshop
                                                                           nt
sponsored by Walker & Company did have two Program Directors participate in
trainings. Volunteer Florida, in working with this subgrantee, had identified this


                                         Page 1 of 32
                         Volunteer Elorida: Response to the draft report on the
       Audii of Coporationfor Na!ional and Cornmuni@Service Grants Awarded to VolunteerFlorida

    organization as needing additional assistance prior to the audit. Volunteer Florida
    requested the audit team visit this program due to our monitoring indications.

    Response to the statement in compliance riding 1: "We observed the overall focus
    of the Commission appeared to b; establishing elation ships with Volunteer Centers
    throughout the State rather than assisting its AmeriCorps subgrantees with grant


    Volunteer Florida disagrees with this statement. While the relationship and work with
    Volunteer Centers is well-documented in the Administrative grants funded by the
    Corporation for National and Community Service, Volunteer Florida's main focus is and
    has always been the administration of Florida AmeriCorps programs.

    To demonstrate this focus, Volunteer Florida has invested in seventeen (17) full-time
    staff members with either partial or 100 percent responsibility for the administration of
    AmeriCorps programs as demonstrated in the chart below. The 01SCSFL009 and
    04ACHFL001 budgets include only one (1) full-time staff member devoted to Volunteer
    Center Development.




    Budget Assistant                I Program Assistant
    Executive Assistant             I Grants Administrator
I   Staff Assistant                 1                                    I                       1
    Response to the statement in compliance finding 1: "We also noted that the
    ~okmissiontended to not renew the subgrants of subgrantees that had problems,
    rather than assist those subgrantees with corrective actions."

    Volunteer Florida has an aggressive assistance process in place to work with programs on
    corrective actions. Volunteer Florida has never non-renewed a program without having
    offered the subgrantee assistance and guidance, all of which is well-documented:

           Volunteer Florida has a fair, competitive and comprehensive process in place to
           fund programs. That process was not questioned in the audit report.
           Programs funded during the scope of the audit have, on average, received funding
           for 6.7 years, or an average of more than two grant funding cycles.
           Volunteer Florida has a responsibility as state Commission to fund diverse, cost
           effective, and sustainable programs; therefore, in moving programs toward
           sustainability, reducing fidsawarded to subgrantees over time is necessary.
    In response to statement in the executive summary that "Several subgrantees were


                                           Page 2 of 32
                      Volunteer Florida: Response to the draft report on the
   Audit of Corporationfor National and Community Service Grants Awarded to Volunteer Florida

unaware of grant provision and laws and regulations, and were not provided
guidance from the Commission":

Volunteer Florida disagrees with this opinion and has requested that auditors provide
specific instances supporting this statement. This would be helpful in assisting programs
that, despite having been provided guidance and having participated in trainings provided
to all subgrantees, still struggle with understanding provisions, laws and regulations.

Specific instance where subgrantees are provided a review of grant provisions, laws, and
regulations include: 1) during contact negotiations; 2) during annual new program
director orientation; and 3) during planned, comprehensive trainings held throughout the
program year.

2: The Commission did not have adequate procedures in place to ensure that its
subgrantees documented member eligibilitv, and that members completed the
sewice hours required to earn the education award.

Commission's Resvouse

Volunteer Florida disagrees with this find'mg. Volunteer Florida has a process in place to
monitor this area of program compliance, and to address instances where subgrantees did
not adequately support Member service hours or Member eligibility documentation (an
excerpt of this tool is provided at the end of this document). Volunteer Florida's system
of monitoring meets the standards of the Corporation for National and Community
Service and is consistent with other state Commissions.

Volunteer Florida utilizes a risk-based program management system that guides staff in
addressing program challenge areas and also in determining the best monitoring and
technical assistance strategy to address challenges. Volunteer Florida staff complete a
risk assessment and plan for monitoring and technical assistance at the start of each
program year.

Subgrantees receive at least one on-site monitoring visit each year utilizing an extensive
monitoring tool (see end of document for the monitoring tool). The Volunteer Florida
monitoring tool includes 11 modules of major program management areas that based
upon the AmeriCorps Provisions.

At least one-quarter of the timesheets for the total corps are tested for accuracy on-site. In
addition, Program Consultants review Member time logs quarterly via WBRS.
Subgrantees with Members who appear to be behind in hours are notified in writing and
asked to respond or clarify the status of the Member(s) hours.

Volunteer Florida stresses during trainings and program orientation that Member service-
hour completion is the responsibility of the local subgrantee charged with directly
supervising Members. Grantees with compliance issues in this area are given 30 days to
resolve issues and reimbursements are suspended until all issues are resolved. Beginning
August 1,2006, Volunteer Florida instituted a policy requiring programs to submit


                                        Page 3 of 32
                      Volunteer Florida: Response to the drah report on the
   Audit of Corpurationfor National and Community Service Grants Awarded to Volunteer Floridu

Member timesheets for the first three months of each program year, enabling consultants
to identify Member-time and staff-time tracking errors early in the program year.

3: The Commission did not have adeauate financial monitoring vrocedures or other
procedures in vlace to ensure that it claimed costs allocable to the grants.

Commission's Resoonse
Volunteer Florida disagrees with this finding.

With regard to costs questioned relative to work with the Volunteer Florida Foundation,
Volunteer Florida believes that it is within the intended scope of work, as outlined in
federal code, to engage the Foundation, which is designated in Florida Statute as its
Direct Support Organization @SO), as a part of Volunteer Florida's holistic approach to
achieving its mission. Florida Statute clearly defines the extent to which Volunteer
Florida and the Volunteer Florida Foundation can work together. Volunteer Florida will
continue working the Corporation for National and Community Service to define more
clearly the relationship between Volunteer Florida and the Foundation.

Questioned costs regarding emergency management work are allocable to the grant and
within Volunteer Florida's scope of work, the Unified State Plan, and Volunteer Florida's
mission: "Strengthening Florida's Communities through Volunteerism and Service."

Volunteer Florida is unique in that it has entered into an agreement with the Florida
Division of Emergency Management and the State Emergency Response Team (SERT)
to serve as the official state coordinator of volunteers and donations during times of
disaster. This role has enabled Volunteer Florida to provide leadership in engaging
AmeriCorps Members in disaster response

4: Unnecessaw and unreasonable costs claimed.

Commission's ReS~onSe

Volunteer Florida unequivocally refutes the allegation that staff lobbies any member of
Congress or Congressional staff. Volunteer Florida has a clear understanding of the OMB
Circulars and State of Florida regulations with respect to: 1) lobbying; 2) advocacy; and
3) education. Volunteer Florida staff has participated in several trainings relating to this
topic.

In reaching out to community-based organizations, it is vital for community leaders,
including elected officials, to be informed about the resources available to address their
communities' needs.

The audit report bases its finding on a single paragraph, taken from a letter signed by a
former volunteer Commissioner, which was unrelated in content to the legislative visits
and was sent a full three months after the visits occurred. Commissioners, as volunteers,
are permitted to lobby independently; however, at no time was Volunteer Florida money


                                        Page 4 of 32
                      Volunteer Florida: Response to the draft report on the
   Audit of Corporationfor Notional and Community Service Grants Awarded to Volunteer Florida

spent on lobbying.

All meetings with members of Congress or Congressional staff are carefully scripted to
detail only how federal funding provided has been utilized in Florida. At no time during
these meetings have staff or Commissioners had conversations that relate to new grants
or renewal grant awards. At no time do the conversations attempt to influence the
introduction, the enactment or modification of any pending legislation.

The audit report also states: "We also determined these trips to be unnecessary and
unreasonable because many of the trips to Washington D.C. were to meet with elected
officials from the State of Florida. We believe it would have been feasible for these
meetings to take place in Florida."

As stewards of taxpayer dollars, it would be unreasonable, wasteful and in conflict with
section of OMB A-87 referenced, to conduct 13 separate visits to 13 separate cities at 13
separate times within a state covering an area of 58,560 square miles - including more
than 1,000 miles between Pensacola and the Florida Keys -when the same results can be
achieved in one two-day visit to Washington, D.C., where legislators are located within
two city blocks of each other.

5: The Commission did not have adeauate orocedures in olace to ensure that travel
costs charged to the grants were allowable. allocahle, and reasonable.

Commission's Res~onse

Volunteer Florida disagrees with this finding.

Volunteer Florida and fiscal agent Tallahassee Community College have a strong
understanding of OMB Circulars. Volunteer Florida does not concur that any staff travel
has been unn&essary, unreasonable, unallocable or unallowable. All travel completed is
within the scope of work, the Unified State Plan, and Volunteer Florida's mission:
"strengthening Florida's Communities through Volunteerism and Service." As one of
the nation's largest state service Commissions, Volunteer Florida has s6cient resources
both to provide subgrantee monitoring in accordance with Corporation for National and
Community Service standards and to fulfill the holistic scope of its mission.

The established procedures and processes to ensure staff travel costs are allowable,
allocable and reasonable were not questioned. The process for the Executive Director's
travel has been revised to provide travel authorizations and reimbursement vouchers to
the Commission Chairman, Vice Chairman or Treasurer for approval.




                                         Page 5 of 32
                      Volunteer Florida: Response to the draft report on the
   Audit of Corporationfor National and Community Service Grants Awarded to Volunteer Florida

6: The Commission claimed meals that exceeded established ver-diem rates.

Commission's Resvonse

Volunteer Florida's past practice of providing meals included as a part of a lump-sum
contractual arrangement with convention and meeting facilities for Commission and
AmeriCorps program meetings and trainings is no longer in force. Meal costs are now
held to the limits established by the Florida Legislature.

7: The Commission did not have vrocedures in vlace to ensure that other direct
costs chalmed to the grants were allowable. allocable. and reasonable.

Commission's Resvonse

Volunteer Florida disagrees with this finding. All costs questioned are allowable,
allocable and reasonable.

8: The Commission did not monitor subgrantees for comvIiance with grant
provisions.

Commission's Resoonse

Volunteer Florida disagrees with this finding. Volunteer Florida places great emphasis
and works diligently on strengthening its monitoring procedures so that all subgrantees
meet all requirements and manage effective programs. Volunteer Florida's monitoring
tool is updated annually to comply with all changes to the AmeriCorps Provisions.
Volunteer Florida electronically tracks all monitoring visits, has a written protocol for
conducting monitoring visits, and provides subgrantees with a written report of visits
utilizing the monitoring tool.

The audit report implies that in every instance where a subgrantee failed to produce
required documentation, Volunteer Florida failed either to provide guidance or to monitor
in accordance with the AmeriCorps Provisions. The report, however, does not include
any specific instance in which Volunteer Florida staff failed to produce documentation of
the extensive work done with programs to resolve compliance issues.

Volunteer Florida utilizes a risk-based program management system that guides staff in
addressing program challenge areas, and in determining the best monitoring and technical
assistance strategy to address challenges. Volunteer Florida staff complete a risk
assessment planfor monitoring and &mica1 assistance at the start of the program year.

Subgrantees receive at least one on-site monitoring visit each year. The Volunteer Florida
monitoring tool includes 11 modules of major program management areas that are based
upon the AmeriCorps Provisions.

Subgrantees with compliance issues are given 30 days to resolve issues and
reimbursements are suspended until all issues are resolved. As of August 1,2006,

                                        Page 6 of 32
                      Volunteer Elorida: Response to the draft report on the
   Audit of Corporafionfor Nahnal and Community Semice Grants Awarded to Volunteer Florida

subgrantees began submitting Member timesheets for the first three months of each
program year. The above-referenced scheduled on-site review by Volunteer Florida
budget office personnel will allow more time during the on-site monitoring visits for
Program Consultants to review Member eligibility documentation, to address timeliness
of reports, and to review other required documents.

9: Executive Director annual and sick leave.

Commission's Response

Volunteer Florida disagrees with this finding. The audit implies that exempt employees
seek to use a compensatory leave policy. This is inaccurate because a flexible work
schedule is not compensatory leave. Volunteer Florida utilizes a flexible work schedule
for exempt employees, which is in accordance with Florida Statutes. Volunteer Florida
also has written documentation from Tallahassee Community College administration that
the flexible work schedule currently in use does not conflict with TCC policy.

Internal Control Finding

LO: Director of Ememenw Management Sewices timekeeping.
Commission's Response

Volunteer Florida disagrees with this finding. The characterization of the Director of
Emergency Management Services' timekeeping practices is incorrect and not reflective
of documentation provided. Timekeeping is maintained in accordance with the OMB
Circular A-87.

Volunteer Florida would like to note that this finding was not presented at the exit
interview, when all other potential findings were revealed. Volunteer Florida regrets the
inability to address this issue prior to the final audit response.




                                       Page 7 of 32
                         Volunteer Plorida: Response to the draft report on the
      Audir of Corporationfor National and Community Service Grants Awarded to Volunteer Florida

Following is the monitoring tool referenced in the above document:

TECHNICAL ASSISTANCE & COMPLIANCE REVIEW
EXECUTIVE SUMMARY

    Program Name:

    Date of Visit:

    Visit Conducted by:


    Intewiews Conducted:


I                                                                                                  I

Program Description

Recruitment and Retention of Members:

Progress Toward Performance Measurement Objectives:


Needs and Sewice Activities:




Strengthening Communities:




Member Development:




                                           Page 8 of 32
                      Volunteer Florida: Response to the draft report on the
   Audir of Corporationfor Nm'onol and CommuniIy Service Gronb Awarded to Volunteer FIorida

Progress toward sustainability (include established partnerships within the
community):



Program Strengths:



Program Challenges:




Training or Technical Assistance Needed by Program:




Compliance Issues Requiring Immediate Program Action:




                                       Page 9 of 32
                      Volunteer Florida: Response to the draft report on the
   Audit of Corporationfor National and Community Service Grants Awarded to Volunteer Florida




This Program Technical Assistance and Compliance Review Instrument covers
AmeriCorps specific laws, provisions and other federal requirements. It contains the
following sections that cover basic program implementation components and early issue
detection:


Section I:                    Member Documentation Compliance
Section I-A:           Member Timesheet Compliance
Section 11:                   Effective Staff Recruitment and Development
Section 111:           Member Management
Section 111-A:         Member Service Site and Service Activities
Section N:             Effective Program Implementation
Section IV-A:          Data Collection, Analysis and Reporting Procedures
Section IV-B:          APR Reporting Procedures and WBRS
Section V:                    Fiscal Management
Section VP             Program Inclusion & Accessibility
Section VII:           Sustainability




                                        Page 10 of 32
                    Volunteer Rorida: Response to the draft report on the
   Auat of CorporotionforNotional and Comnurni@Service GrantsAwarded to Voknfeern o d &




 Number of Members allocated this program year:

 Number enrolled in WBRS:
 Number of Members currently serving:
 Number of Members who were exited for personal compelling circurnstauw:
 Number of Members who were exited for other than personal and compelling
 circumstances:
 Number of files reviewed for Members who are currently sewing:
 Number of fdas reviewed of Members who have exited the program:

Do Member files contain the appropriate documentation listed below?
     Evidence of eligibility to serve (e.g., age, citizenship, or residency). The
     acceptable documents to verify citizenship or lawful permanent resident
     status are listed below.
   J Birth Certificate
   J U.S. Passport
   J Certificate of birth-foreign service (FS-545) issued by the State Department
   J Certificate of report of birth @S-1350) issued by the State Department
   J Certificate of naturalization (Form N-550 or N-570) issued by the INS
   J Certificate of citizenship (Form N-560 or N-561) issued by the INS For lawful
     permanent resident alien
   J A Permanent Resident Card or Alien Registration Receipt Card (also known as
     the Green Card) (Form 1-551) issued by the INS
   J A passport indicating that the INS has approved it as temporary evidence of
     lawful admission for permanent residence
   J     A Departure Record (Form 1-94) issued by the INS, indicating that the INS
     has approved it as temporary evidence of lawful admission for permanent
     residence
     WBRS Member enrollment forms
     Signed Member contract
         J Dates of Term of Service
         J Minimum service hours and other requirements (as developed by the
             program) for successful completion of term of service and to be eligible
             for the education award
         J Service Status -Full-time, Half-time etc.
         J Expectations [Conduct, Duties, Attendance, etc.)
         J Attendance Policy
         J Disciplinary Procedures to include suspension and termination rules
         J Specific circumstances under which aMember may be released for cause



                                      Page 11 of 32
                      Volunteer FLorida: Response to the draft report on the
   Audit of Corporationfor National and Communiry Service Grants Awarded to Volunteer Florida

           J    Signed Grievance Procedures (in accordance to AmeriCorps Provisions) -
                see Grievance Checklist
           J Living Allowance amount and distribution
           J Ineligibility for Unemployment Compensation
           J Position Description
           J Prohibited Activities
           J Member Benefits
           J Acknowledgement of a Drug-free workplace
           J Sexual Harassment And EEOC Statement
       Criminal Background checks (if required)
       Child Care eligibility (if eligible)
       Healthcare eligibility (if applicable)
       High School ~ i ~ l o m  or a&equivalency certificate (or agreement to obtain a
       high school diploma or its equivalent before using an education award) OR
       doenmentatio; that the member has been determined through an
       independent assessment to be incapable of obtaining a high school diploma
       or its equivalent.
       Member position description
       Member evaluations (at least mid and end of year required)
       Change of status or end of term of service forms
Grievance Procedure Checklist
The Program's Grievance Procedures for AmeriCorps Programs must be established in
accordance with 42 U.S.C. 12636 and implementing regulations 45 C.F.R. 2540.230.
Formal Grievance Procedures must contain the following:
           Time Limits -Except for a grievance that alleges fraud or criminal activity, a
           grievance must be made no later than one year after the date of the alleged
           occurrence.
           If a hearing is held on a grievance, it must be conducted no later than 30
           calendar days after the filing of such grievance.
           The grievance hearing is conducted by someone who was not involved in the
           initial decision making process of the issue.
           A decision on any such filled grievance must be made no later than 60 days
           after filing.
Arbitration - If there is an adverse decision against the party who filed the grievance, or
no
decision has been reached after 60 calendar days after filing the grievance, the
aggrieved party
mav submit the mievance to binding arbitration. Arbitration must include the following:
                Glection of an &bitrator - An qualified arbitrator agreed upon by both
                parties must be identified within 15 calendar days after receiving a
                request from one of the parties.
           0 Time Limits -An arbitration proceeding must be held no later than 45
                days after the request for arbitration. A decision must be made by the
                arbitrator no later than 30 calendar days after the date the arbitration
                proceeding begins.
                Costs-The costs of the arbitration proceeding must be divided evenly


                                        Page 12 of 32
                      Volunteer Florida: Response to the draft report on the
   Audit of Corporationfor National and Community Service Grants Awarded to Volunteer Florida

               between the parties to the arbitration. The Grantee must pay the total cost
               of the proceeding and reasonable attorney's fees of the prevailing party
               incurred in connection with the ADR proceeding.

List Member files reviewed:

Member files listed above are complete and accurate:
        NO
If no, please list names of incomplete member files:

Member files that do not contain all eligibility documentation or are missing information
is a compliance issue. Listed below are the corrective action steps that are necessary:




                                        Page 13 of 32
                       Volunteer Florida: Response to the draft report on the
     Audh of Corporationfor National and ContinunityService GrantsAwarded to VolrrnteerFlorida




fourtb of the total number of members enrolled. The most current and ~reviousmonth's
timesheets should be reviewed and compared to time logs in WBRS. 1f problems are
found during the initial review such as; inconsistent calculations, unsigned timesheets,
prohibited activities, etc., it will be considered a compliance issue and may require a
complete audit of all member timesheets.

1, Do the timesheets clearly track the service activities to ensure adherence to the 8000
   rule? (Members hours must be direct service activities and no more than 20%
   attributed to training).

2. Are the timesheets signed and dated regularly by the Site Supervisor and Program
     Director to indicate that member hours have been verified?

3. Are member service activities listed on timesheets in line with the approved
   objectives and are void of prohibited activities?

4. Are members awarded service hours for anything other than service or training (for
   example, planning time?) If so, what do the hours represent and is there an
   appropriate written policy in place to manage these hours.

5. Are members on target with their hours given their tenure in the program?

6. How often are member timesheets turned in andlor reviewed?

List Member timesheets reviewed:

Are member timesheets reviewed complete, accurate, and consistent with WBRS?O
        YES 0          NO
If no, please list names of individuals for which there are incomplete member timesheets

Member Documentation Follow-up and Support

Ask program staff the following questions:

1.     Is there more information, training or support needed in this area?




                                          Page 14 of 32
                    Volunteer Florida: Response to the draft report on the
 Audit of Corporationfor National and Community Service Grants Awarded to Volunteer Florida

Volunteer Florida Recommendations:




                                      Page 15 of32
                       Volunteer Florida: Response to the draft report on the
     Audit of Coporarionfor Notional and Communig Service G m b Awarded to VolunteerFlorida




 This section contains information collected from interviewing, conversing with and/or
 observing:

 4     Board Member(s)                                  +      Member(s)
         +      Program staff
 +     Other stakeholders                               +      Member supervisor(s) from
     partner organization@)

      Describe the tenure and structure withiin the organization of key program staff.

      What evidence or documentation exist that show program staff have copies of the
      most recent AmeriCorps Ptovisions and Corporation for National Service Program
      Directors Handbook?

      What evidence or documentation exist that shows that the program staff is familiar
      with their Volunteer Florida contract?

      What evidence or documentation exist that show the lead agency does require that
      program staff comply with the Drug-Free Workplace Act?

      Does program staff keep timesheets in accordance with federal policy ( note:
      educational institutions are exempt)?

      What evidence or documentation exist that show that staff is aware of limitations on
      fundraising prohibitions for AmeriCorps staff?

      What evidence or documentation exist that show that staff is aware of the
      performance measurement objectives?

      Does Program staff have current position descriptions that accurately reflect their
      job responsibilities?

      Does program staff receive at least an annual performance evaluation?

      Describe how staff (particularly new staff) training needs will be identified and met
      this year?

 Staff Development Follow-Up and Support

  Ask program staff the following questions:
  1. Is there more information, training or support needed in this area?
I Volunteer Florida Recommendations:

                                        Page 16 of 32
                  Volunteer Florida: Response to the draft report on the
Audii oJCorporationfor National and Community Service Grants Awarded to Volunteer Elorida




                                     Page 17 of 32
                      Volunteer Florida: Response to the draft report on the
   Audit of Corporatianfor National and Community Service GrantsAwarded to VolunteerElorida




1. Has the program recruited the allotted number of members?

2. What recruitment strategies did the program use?

3. Have Members been provided a copy of a position description? If not, how is it
   assured that members are knowledgeable of their roles and prohibited activities?

4. How do members become aware of program goals and objectives?

5. What member attendance procedures are in place?

6. How are members regularly updated on progress toward hours?

7. How often do program staff and members meet as a team?

8. What activities are in place to facilitate team building and esprit' de corps among
   members?

9. Have members been given a copy of their position description? (Review)

10. What disciplinary or corrective action procedures are in place for members who fall
    behind on hours or are not meeting performance standards?

11. Did all Members participate in a pre-sewice orientation (attach an orientation
    agenda). If not how did the program ensure that members understood their
    commitment and role in the program?

12. According to members and program partners, what pre-service training was provided
    to Members? According to Members and Site Supervisors, did the pre-service
    trainings adequately prepare them for sewice?

13. Has the program scheduled all required trainings? (Attach a copy of the program
    training schedule) If not, what is being done to ensure that members receive required
    trainings?

14. What process is in place to ensure that all members receive required training
    including members who begin the program late or miss scheduled trainings?

15. How often are performance evaluations conducted on the members?

16. Is the program experiencing a member retention problem? If yes, how is this
    challenge being addressed?


                                       Page 18 of 32
                      Volunteer Florida: Response to the draft report on the
   Audit of Corporationfor Natwnal and Community Service Grants Awarded to VolunteerFlorida


Member Management Follow-up and Support

Ask program staff the following questions:
   1. Is there more information, training or support needed in this area?
Volunteer Florida Recommendations:




                                       Page 19 of 32
                       Volunteer Florida: Response to the drafi report on the
                        for National and Cofnmunily Service Grants Awarded to Volunteer Florida
    Audit of Corporobobon




This section contains information collected from interviewing, conversing with andlor
observing:
+    Board Member@)                                      + Member@)
        + Program staff
+ Other stakeholders                                 + Member supervisor(s) from
   partner organization(s)


1. What type of orientation to the AmeriCorps program did the service sites receive?
   Who participated from the sites?

2. Has each site where members serve, signed an agreement that ensures that they
   follow the policies regarding member management, prohibited activities, and program
   performance measurements?


3. Has the program designated a staff person to daily oversee the member's service
   activities, and verify service hours, at each site?

4. Have all members been given a service schedule that will ensure completion of
   required hours by the end of term?

5. What types of activities does a typical day include for members and how many hours
   a week are Members required to serve? (Review activities)

6. What are the procedures does the Program Director have in place monitoring service
   sites and do those procedures include a written record of monitoring?

7. Are members provided adequate space, equipment, materials and supplies to
   effectively carry out their service assignments?

        Sewice Site and Service Activities Follow-up and Support

Ask program staff the following questions:

    1. Is there more information, training or support needed in this area?




                                         Page 20 of 32
                     Volunteer Florida: Response to the draft report on the
  Audit of Corporationfor National and Communi@Service Grants Awardedto VoIunteer Florida

I Volunteer Florida Recommendations:




                                      Page 21 of 32
                      Volunteer Florida: Response to the draft report on the
   Audit of Corporationfor National and Communily Service Gmnts Awarded to Volunteer Florida




This section contains information collected from interviewing, conversing with andlor
observing:
t    Board Member(s)                                 t     Member(s)
        t      Program staff
t     Other stakeholders                             t     Member supervisor(s) from
   partner organization(s)

1. What documentation exists that demonstrates how community stakeholders (partners,
   community residence, etc.) are involved in program planning and evaluation?

2. Does the program conduct at least an annual survey on stakeholder satisfaction? If so,
   how is this information used to improve program operations?

3. How is the Board involved in program planning and implementation?


4. What documentation exists that demonstrates how program staff provide partners
   with regular updates on program progress?


5. What system is in place to recruit, track, and recognize volunteers?


Program Implementation Follow-up and Support

Ask program staff the following questions:
1. Is there more information, training or support needed in this area?


 v'olunteer Florida Recommendations:




                                        Page 22 of 32
                    Volunteer Florida: Response to the draft repart on the
   Audt of Corporationfor Ndonai and Community Service Granb Awarded to VolunteerF&ri&




observing:
t    Board Member(s)                                   t       Member(s)
       t      Program staff
t    Other stakeholders                                t       Member supervisor(s) from
   partner organization(s)

1. Does the program have a procedure in place for collecting data on each performance
   measure and is this procedure written so that other program staff and program
   partners can assist in collecting data?

2. Do the members participate in collecting data? If yes, what data do they collect?

3. Does the program have any evaluations or assessments prepared to gather data on
   program services, projects completed, performance or impact?

4. Review Progress on Needs and Service performance measure objectives. What data
   is collected to report progress on Needs and Service performance measure objectives?


5. Review Progress on Member Development performance measure objectives. What
   data is collected to report progress on Member Development performance measure
   objectives?


6. Review Progress on Strengthening Communities performance measure objectives.
   What data is collected to report progress on Community Strengthening performance
   measure objectives?


Performance Measure Objectives and Data Collection Follow-up and Support
Ask program staff the following questions:

   1. Is there more information, training or support needed in this area?




                                       Page 23 of 32
                    Volunteer Florida: Response to the draft report on the
 Audit of Corporationfor National and Communify Service Granantr Awarded to Volunteer Florida

Volunteer Florida Recommendations:




                                       Page 24 of 32
                       Volunteer Florida: Response to the drsfi report on the
    Audit of Corporationfor National and Communiry Service GrantsAwarded to Volunteer Florida




This section contains information collected from interviewing, conversing with andlor
observing:
+ Program staff                                                    +Fiscal personnel
+  Lead agency staff involved in the program reporting


1. Does program staff have a good working knowledge of the use of WBRS?

2. Does the program submit clear and comprehensive information on the progress report
   and is the report submitted in a timely manner?

3. Are the performance measure objectives and implementation plans complete in the
   APR map on WBRS?

4. Does the program data collection systemlinformation collected consistent with the
   information provided by the program on the WBRS progress reports?

5. Review a sampling of the program's data for one of its performance measures from
   the previous year? Is the data consistent with the program's fmal AmeriCorps
   Progress Report (APR) from the previous year?

Reporting Procedures and WBRS Follow-Up and Support
Ask program staff the following questions:
1. Is there more information, training or support needed in this area?


 Volunteer Florida Recommendations:




                                        Page 25 of 32
                     Volunteer Florida: Response to the draft report on the
   Audk of Corporationfor National and Community Service Granb Awarded to Volunteer Florida




A. Systems, Policies and Procedures
The purpose of this section is to obtain an understanding of the program's fiscal systems,
polices and procedures. Based upon past fiscal performance the all or some of the
following questions will be asked of the grantee to determine HOW each item is
completed, WHO is responsible for completion, WHO is involved in the transaction and
WHY the system works best for the organization. If necessary, request a copy of the
organization's Policies and Procedures.

     How is program staff informed of the budget, budget narrative, and expenditures?

     How does the program track expenditures for AmeriCorps program separately from
     other expenditures?

     How does the program trackmatch to ensure match is not used as match for
     another program?

     Are equipment purchases in compliance with the budget narrative or has written
     approval been received from the Commission?

     How does the program track cash and in-kind match (in-kind vouchers, invoices,
     etc.)?

     Is signature authority on purchases and checks shared between several employees?

     Does the program reconcile monthly bank (account) statements?

     How does the program compare expenditureswith budget?

     Does the program have adequate liability and worker's compensation coverage?

     Review the program's member payroll records. How often do members receive
     their living allowance? Is the living allowance paid in the same amount each pay
     period or do the amounts fluctuate?




                                       Page 26 of 32
                      Volunteer Florida: Response to the draft report on the
   Audil of Corporationfor National and Cornnumi@Service Cranh Awarded to Volunteer Florida

B. Expense Reports (FSRs)
The purpose of this section is to obtain additional information on reported expenses that
cannot be obtained without an on-site visit. Select one of the program's recent completed
FSRs and review the supporting documentation for at least one expenditure. Request to
see actual documentation and review for support of Policies and Procedures. Determine
the following for all expenditures selected:


1. What do the expenditures represent?


2. How were the expenditures incurred?


3. Why were the expenditures necessary?


4. Who approved the expenditures?


5 . Do supporting documents equal the amounts reported?


6. Are expenses recorded in the appropriate line items of the budget?


Source Documents and Reoorts Reviewed

List all source documents and reports reviewed, the dates covered by the review and the
names of the personnel responsible for providing the information.


Ask program staff the following questions:
   1. Is there more information, training or support needed in this area?



 Volunteer Florida Recommendations:




                                       Page 27 of 32
                    Volunteer Florida: Ilespouse to the draft report on the
   Audit of Corporabnfor National m d Communily Service GranisAwarded to Vohnteer Florida




I Program Name:                                    I Date of Visit:
 Visit Conducted by:                                Person Interviewed:


1. Has the program staff completed and submitted this years Plan to Recruit Persons with
               Disabilities?



If not, the program staff will be given a specific date to submit the required plan.

If so, review a copy of the Plan to Recruit Persons with Disabilities which must include
the following:

           A letter of agreement attached to the plan and contact information for the
           organization and types of disability served provided in the plan?
           Updated letters of agreement dated for the current program year?
           Three outreach activities and completion dates for the current year
           A representative from the disability community to the program
           A listing of essential job functions
           A process for obtaining feedback &om the disability community on the
           program's efforts to include persons with disabilities in the program
           Documentation of progress on previous year plan

2. Has the required disability awareness and sensitivity training been scheduled or
conducted for all AmeriCorps members?
If not, what plans does the program have to ensure that this training is scheduled within
30
 days of the date of this visit.

       Inclusion & AemibTty Follow-up and Support

1. Describe challenges the program is experiencing in the area of inclusion and
accessibility and describe technical assistance or training needed.




                                       Page 28 of 32
                     Volunteer Florida: Response to the draft report on the
   Anif of Corporalionfor National Md Conmum@ S m i e GrontsAwarded to Volunteer Florida




This section contains information collected from interviewing, conversing with and/or
observing:
t     Board Member(s)                                t     Member(s)
        t      Program staff
t     Other stakeholders                             t     Member supervisor(s) from
   partner organization(s)

   1. Has the lead agency developed a written plan of how program services will be
      sustained beyond AmeriCorps fundiig? If not, what is the time lime for the lead
      agency to develop a witten plan?

   2. Who is specifically responsible for coordinating the development of the
      sustainability plan?
   3. Are key stakeholders aware of the requirement to develop and implement a
      sustainability plan? If so, how were key stakeholders made aware of this
      requirement?

   4. What strategies will be used to engage stakeholders in the development of a
      sustainability plan and what documentation exists to demonstrate that these
      strategies a& being utilized?

   5. What is the primary strategy or means for the community to sustain services
       beyond AmeriCorps fundiig?

   6. What agency or entity will be primarily responsible for implementing or
      coordinating the provision of servicesbeyond AmeriCorps fundimg?

   7. Describe the progress to date in the development or implementation of a
      sustainability plan?

   8. Does the program's sustainability plan include fundraising efforts? If so, who is
      responsible for fundraising activities?

   9. Does the program's sustainability plan include a role for members? If so,what is
      the member's role and are member activities in accordance with the AmeriCorps-
      Provisions?

Program Service Sustainability Follow-Up and Support

Ask program staff the following questions:

2. Do you need more information about or support in developing or implementing your


                                      Page 29 of 32
                     Volunteer Florida: Response to the draft report on the
  Audit of Corporationfor National m d Communiiy Service Grants Awarded to Volunteer FIorida

   sustainability plan?
Volunteer Florida Recommendations:




                                       Page 30 of 32
                      Volunteer Florida: Response to the draft report on the
   Audit of Corporationfor National and Community Service Grants Awarded to Volunteer Florida

Program Technical Assistance & Compliance Review
Checklist

Program Staff should have copies of the following available on the frst day of the visit.
Program Consultants should review this information and keep required documentation in
the program's official Volunteer Florida Contract File

           Member Contract (including Grievance Process)
           Member Orientation Agenda
           Member TimesheetsIActivity Log
           Member Position Description
           Staff Timesheet
           Program DirectorICoordinator Position Description
           Sample Partner Site Agreement
           Member Training ScheduleICalendar
           Plan to Recruit Persons with Disabilities (including current letters of
           agreement)
           Updated SustainabilityPlan
           List of Community Partners
           Contact Information for Agency Board Members
           Lead Agency Organizational Chart
           Copy of Lead Agency Statement of Drug-Free Workplace
           Copies of documentation of expenditures to be reviewed
           Data to support program previous progress report (Identified by Program
           Consultant prior to visit)
           Copy of Stakeholder Survey




                                         Page 3 1 of 32
                      Volunteer Florida: Response to the draft report on the
   Audit of Corporationfor National and Community Service Grana Awarded to Volunteer Florida




End the visit with an exit meeting with key staff. During this meeting, review findings as
follows:




1. Program Strengths:




2. Program Challenges:




3. Technical Assistance, Training, or Information Needed by Program:




4. Findings Requiring Immediate Action by Program:




                                        Page 32 of 32
                                  Appendix B



Response to the Draft Report by the Corporation for National and Community Service




                                       66
                                      Corooration for    -


To:            Carol Bates, Acting Inspectpr General

From:          Margaret Rosenbe
               Kristin McSwain, Director of AmeriCo

               Elizabeth Seale, Chief Operating Officer
               Sherry Wright, Audit Resolution Coordinator, Office of the CFO

Date:          August 24,2006

Subject:       Response to OIG Draft Audit Report: Audit of Corporation for National and
               Community Service Grants Awarded to Volunteer Florida


Thank you for the opportunity to review the draft audit report of the Corporation's grants
awarded to the Florida Commission (Volunteer Florida). Due to the limited timefiame for
response, the nature of the auditor's findings, and Volunteer Florida's response, we are
addressing only four issues at this time. We will respond to all findings and recommendations in
our management decision when the final audit is issued; we have reviewed the findings in detail
and worked with Volunteer Florida to resolve the audit.
Before we can fully resolve the audit, we need to understand the basis on which the audit team
made its determination of "systemic failure on the part of the commission to properly monitor
the fiscal activities of its subgrantees." Over 80% of the questioned costs among the subgrants
occurred in only one subgrantee, which may not suggest that the problem is systemic. However,
while not stated in the report, discussions with your staff revealed that the audit team also could
not easily reconcile expenditures as reported by subgrantees on the Financial Status Report to the
subgrantee's general ledger. Therefore, while the Volunteer Florida response describes an
extensive monitoring plan, its strengths are in programmatic monitoring and there are areas for
improvement related to financial monitoring. A Corporation team conducted a monitoring and
technical assistance site visit to Volunteer Florida in early June and reviewed corrective action
plans Volunteer Florida has developed to address the issue. The commission developed a new
financial monitoring tool and is moving to a risk-based monitoring system to ensure all high risk
and new programs receive extensive financial monitoring and assistance. The team also
recommended that the commission use its financial office to conduct all fiscal monitoring.

The Corporation agrees with the audit team that the relationship between Volunteer Florida and
the Volunteer Florida Foundation needs to be updated, clarified and documented. During audit
resolution we will ensure that expenses are appropriately charged and the relationship is fully
documented.




                            1201 New York Avenue, NW   *Washington, DC 20525
                                  202-606-5000    *
                                                  www.nationaLservice.org
                            Senior Corps * AmeriCorps * Learn and Serve America
                                                                               ,, : -- - -..;... . ~~.~
                                                                                                      .
The audit report also noted that commission staff seemed to focus more on promotmg
voluntarism and supporting disaster response in the state than on its AmeriCorps administrative
responsibilities. However, commissions have broad responsibilities to r o ~ o t national'service
                                                                                         e              .
                                                                          P
and to coordinate with other volunteer service programs and other fede al a&xxy~enri5;e.a9$_~~
                                                                                            7 , .~
assistance activities in the state. Therefore, Volunteer Florida's activities in thos,e.areka&' !,
                                                                                                     .,
                                                                                                            l
                                                                                                            !


appropriate and allowable as long as they are not conducted at the expe$seofappropriate- - -           ---. '



administration and operation of AmeriCorps programs and activities related to AmeriCorps
   -
programs. During, audit resolution we will review commission activities and ensure the
commission is meeting its broad responsibilities, included those related to review, support,
assistance and oversight of AmeriCorps programs.

Finally, the Corporation's grant provisions and other federal requirements for commission grants
are clear about restrictions on lobbying and what constitutes lobbying. Any expenditure of
federal h d s for direct lobbying efforts are unallowable, including writing to legislators urging
support of appropriations on stationery paid for with grant fimds. However, state commissions
are responsible for providing program information to legislators upon request. During audit
resolution we will review costs to ensure none were incurred for lobbying.

The Corporation will address the remaining questioned costs and other findings during audit
resolution after the audit is issued as final.
